                      United States Department of Agriculture




OFFICE OF INSPECTOR GENERAL


Semiannual Report to Congress
First Half
October 1, 2012-March 31, 2013

Office of Inspector General
No.69
May 2013




                                                                             FISCAL YEAR 2013



                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half   6
KEY OIG ACCOMPLISHMENTS IN THIS REPORTING PERIOD—October 2012-March 2013
SUMMARY OF AUDIT ACTIVITIES
Reports Issued
     Number of Final Reports                                                                                         38

     Number of Interim Reports                                                                                        0

     Number of Final Report Recommendations (230 program improvement / 47                                           277
     monetary)
     Number of Interim Report Recommendations                                                                         0

Management Decisions Reached
    Number of Reports                                                                                                32

     Number of Recommendations* (180 program improvements / 21 monetary)                                            201
Total Dollar Impact of Reports with Management Decisions (Millions)                                               $138.9

     Questioned/Unsupported Costs                                                                                  $15.4

     Funds To Be Put To Better Use                                                                                $123.5

SUMMARY OF INVESTIGATIVE ACTIVITIES
Reports Issued                                                                                                      180
Impact of Investigations

     Indictments                                                                                                    378

     Convictions                                                                                                    298

     Arrests                                                                                                        257

Total Dollar Impact (Millions)                                                                                     $83.8

Administrative Sanctions                                                                                            192

OIG MAJOR USDA MANAGEMENT CHALLENGES (August 2012)
1) Interagency Communications, Coordination, and Program Integration Need Improvement
Related material can be found on pages 1-3 and 29.
2) Strong, Integrated Internal Control Systems Still Needed
Related material can be found on pages 1-3, 7-8, 13-15, 19-20, and 29-30.
3) Information Technology Security Needs Continuing Improvements
Related material can be found on pages 18-21.
4) Material Control Weaknesses in Civil Rights Should Be Mitigated
Related material can be found on pages 7-8.
5) Proactive, Integrated Strategy Is Necessary To Increase Agricultural Commerce and Trade
Related material can be found on page 19.
6) Forest Service Management and Community Action Needed to Improve Forest Health and Reduce Firefighting Costs
Related material can be found on pages 29-30.
7) Food Safety Inspection Systems Need Improved Controls
Related material can be found on pages 1-2.
8) Efforts to Identify, Report, and Reduce Improper Payments Need To Be Strengthened
Related material can be found on pages 14-15 and 20.
9) Planning Needed for Succession Planning and Reduced Staffing
Related material can be found on page 30.

*Please refer to examples of program improvement recommendations cited on the inside back cover.
Message from the Inspector General
This Semiannual Report to Congress (SARC) covers the 6-month period ending March 31, 2013,
and summarizes the most significant accomplishments of the U.S. Department of Agriculture’s
(USDA) Office of Inspector General (OIG). During the first half of the year, our office has
worked extensively with the Department, Congress, and other Federal agencies to ensure the
integrity and efficiency of USDA programs, safeguard the taxpayers’ investment in these
programs, and investigate those who abuse USDA programs.

During this period, OIG has been concluding its oversight of the $28 billion in American
Recovery and Reinvestment Act of 2009 (Recovery Act) funds provided for USDA programs.
Since 2009, we have completed a total of 75 Recovery Act audit projects—we have 5 projects in
their final phases, which focus on whether USDA has fulfilled the transparency and reporting
requirements of the Recovery Act.

Our accomplishments during this period have been significant. We conducted successful
investigations and audits that led to 257 arrests, 298 convictions, $83.8 million in investigative
recoveries and restitutions, 180 program improvement recommendations, and $138.9 million in
audit financial recommendations. Our activities, including our Recovery Act work, are
described according to our strategic goals, as outlined in the OIG Strategic Plan for fiscal years
(FY) 2010-2015:

      Safety, Security, and Public Health—To help ensure the safety of U.S. beef, we
       reviewed how the Food Safety and Inspection Service (FSIS) tests beef components that
       are often made into ground beef at downstream processors, as well as grocery stores,
       butcher shops, and restaurants, and found that the agency could improve how it tests
       these components at slaughter plants. Two recent OIG investigations have led to prison
       sentences for owners of fertilizer companies who fraudulently marketed and sold
       fertilizer as organic when it contained non-organic components.

      Integrity of Benefits—OIG investigations continue to ensure the integrity of USDA’s
       food assistance programs. In a particularly noteworthy case, prison sentences have now
       been handed down for 13 of 16 individuals charged with opening 13 storefront
       operations in Georgia to defraud the Supplemental Nutrition Assistance Program (SNAP)
       and the Special Supplemental Nutrition Program for Women, Infants, and Children
       (WIC). These individuals have been sentenced to a combined 43 years of prison time
       and ordered to pay restitution totaling more than $6 million. We also found that Rural
       Development (RD) needs to strengthen its controls for reimbursing lenders when
       borrowers default on home loans. We estimate that the agency paid about $87 million
       in loss claims that were at risk of improper payments due to questionable loan eligibility
       and paid about $254 million in loss claims for loans that were at risk of improper
       payments due to questionable lender servicing.
      Management Improvement Initiatives—OIG found that, although the Rural Utilities
       Service (RUS) complied with the provisions of the Recovery Act in how it implemented
       the Broadband Incentives Program, RUS could have implemented the program so that it
       would have focused more exclusively on rural residents who did not already have access
       to broadband. An OIG investigation led to an area director with RD in Alabama pleading
       guilty to wire fraud for depositing $6.2 million in checks into his personal accounts.

      Stewardship Over Natural Resources—Because USDA is entrusted with 193 million
       acres of national forests and grasslands, OIG focuses on the Department’s stewardship
       of these natural resources. Rising energy prices have led to increased interest in the
       exploration and development of domestic oil and gas resources on these lands. Our
       review of how the USDA Forest Service (FS) is working with the Department of the
       Interior’s Bureau of Land Management (BLM) to approve applications to drill for oil and
       gas beneath national forests found that the two agencies need to improve how they
       work together so that oil and gas lease nominations and operations are approved
       expeditiously. FS also needs to ensure that it acts to mitigate the environmental
       damage of such drilling by requiring operators to prepare to respond to any spills.

Finally, in response to recent congressional mandates, OIG has embarked on initiatives to
provide oversight of USDA’s disaster assistance and Hurricane Sandy relief programs and to
establish a whistleblower ombudsman function within OIG.

As always, OIG’s team of dedicated and professional staff is committed to helping USDA
improve the services it provides American taxpayers—the accomplishments reported here are
the direct results of their efforts. We appreciate the interest and support shown by Secretary
Tom Vilsack and his management team and look forward to working together to reduce fraud,
waste, and abuse; ensure that USDA programs are efficient and cost-effective; and help USDA
respond to the demands of a challenging budget environment.



Phyllis K. Fong
Inspector General
Contents
Safety, Security, and Public Health ………………………………………………………………………………………………………….1

Integrity of Benefits ………………………………………………………………………………………………………………………………..6

Management Improvement Initiatives ………………………………………………………………………………………………….19

Stewardship Over Natural Resources ……………………………………………………………………………………………………30
Safety, Security, and Public                                    In the first half of FY 2013, we devoted 12 percent of our
                                                                total direct resources to Goal 1, with 100 percent of these
Health                                                          resources assigned to critical-risk and high-impact work. A
OIG Strategic Goal 1:                                           total of 100 percent of our audit recommendations under
Strengthen USDA’s ability to implement safety and               Goal 1 resulted in management decision within 1 year, and
security measures to protect the public health as               60 percent of our investigative cases resulted in criminal,

well as agricultural and Departmental resources                 civil, or administrative action. OIG issued five audit

To help USDA and the American people meet critical              reports under Goal 1 during this reporting period. OIG’s

challenges in safety, security, and public health, OIG          investigations under Goal 1 yielded 46 indictments,

provides independent audits and investigations in these         30 convictions, and approximately $10 million in monetary

areas. Our work addresses such issues as the ongoing            results during this reporting period.

challenges of agricultural inspection activities, the safety
of the food supply, and homeland security.

  Management Challenges Addressed Under Goal 1

           Interagency Communication, Coordination, and Program Integration Need Improvement (also under
            Goals 3 and 4)
           Strong, Integrated, Internal Control Systems Still Needed (also under Goals 2, 3, and 4)
           Food Safety Inspection Systems Need Improved Controls

EXAMPLES OF AUDIT AND INVESTIGATIVE WORK                        establishments had incorrect profile information, resulting
FOR GOAL 1
                                                                in incorrect requests for sampling. Lastly, not all plants we
                                                                reviewed had adequate records for tracing source material
FSIS Should Improve How It Tests Boxed Beef Products
for Escherichia coli O157:H7 (E. coli)                          back to the originating slaughter establishment. Such
FSIS needs to re-evaluate its E. coli testing methodology as    information is crucial during a recall. We recommended
it relates to the downstream processing of boxed beef           that FSIS take steps to correct these issues. FSIS agreed
products—cuts of meat that are sometimes ground, but            with our recommendations. (Audit Report 24601-0003-31,
sometimes cooked whole. While FSIS inspectors test              FSIS E. coli Testing of Boxed Beef)
product designated as ground beef or likely to become
                                                                USDA Needs to Better Coordinate with Food and Drug
ground beef, they do not sample all boxed beef products.        Administration (FDA) to Ensure That Shell Eggs Are Safe
Some downstream processors grind such boxes of
                                                                In August 2010, the Department of Health and Human
unsampled cuts of beef without sampling it for E. coli prior
                                                                Service’s FDA posted a voluntary recall of over 500 million
to grinding. Similarly, “retail exempt establishments”—
                                                                shell eggs nationwide that were potentially contaminated
e.g., grocery stores, butcher shops—potentially grind their
                                                                with Salmonella enteritidis and that were reportedly linked
own ground beef; but unlike federally inspected plants,
                                                                to more than 1,900 illnesses in 11 States. OIG initiated this
FSIS does not sample and test bench trim at these
                                                                audit to evaluate USDA’s controls to detect Salmonella
establishments for E. coli. Additionally, FSIS has recently
                                                                enteritidis and other contaminants in shell eggs and to
transitioned to its new Public Health Information System
                                                                determine how well these agencies are coordinating with
(PHIS). This system relies, in part, on correct profile
                                                                FDA to ensure that shell eggs are fit for human
information to accomplish such tasks as sending inspectors
                                                                consumption. We were unable to determine the specific
E. coli sampling requests; however, we found some
                                                                cause that led to the August 2010 recall, but we concluded
                                                                 Goal 1


that the USDA agencies and FDA could better coordinate                    deficiencies occurred because APHIS did not always ensure
to disseminate crucial information that could have                        effective monitoring of ongoing activities, fully address
potentially limited the scope of recall and related illnesses.            identified risks, or ensure effective communication within
Additionally, we found that FSIS’ refrigeration policies and              the select agent program. As a result, there is an
enforcement efforts and the Agricultural Marketing                        increased risk of the misuse of select agents and a
Service’s (AMS) protection of USDA’s grademark policies                   potential for serious security violations going undetected.
and enforcement efforts would not prevent eggs                                      We recommended that APHIS revise its
potentially contaminated with Salmonella enteritidis from                 inspection procedures, establish policies and procedures
reaching consumers.                                                       for handling select agent transfers in special
          We recommended that FSIS coordinate with FDA                    circumstances, provide guidance to clarify the restricted
to implement a seamless farm-to-table approach to shell                   access requirements, communicate more effectively on
egg safety and ensure that crucial information related to                 expirations of employee security assessments, and
shell egg safety is collected and shared between USDA                     develop and conduct training for entity supervisors. APHIS
agencies and with FDA. We also recommended that FSIS                      agreed with 3 of the report’s 12 recommendations. We
implement a scientifically based policy on shell egg                      will continue to work with APHIS to reach management
refrigeration and that AMS take the necessary steps to                    decision on the remaining recommendations. (Audit
prevent the USDA grademark from being placed on shell                     Report 33701-0001-1-At, Follow Up on Animal and Plant
eggs potentially contaminated with Salmonella enteritidis.                Health Inspection Service’s Implementation of the Select
AMS agreed with our recommendations. Subsequent to                        Agent or Toxin Regulations)
report issuance, we worked with FSIS to reach
                                                                          FSIS and APHIS Need to Improve Their Process for Hiring
management decision for our recommendations. (Audit                       Qualified Veterinarians
Report 50601-0001-23, USDA Controls Over Shell Egg
                                                                          Since several USDA agencies, most notably FSIS and APHIS,
Inspections)
                                                                          rely on qualified veterinarians to safeguard public and
The Animal and Plant Health Inspection Service (APHIS)                    animal health, it is vital that these veterinarians have the
Should Improve its Controls for Regulating Dangerous
                                                                          appropriate level of education and experience needed to
Biological Agents and Toxins
                                                                          perform their jobs. Based on a review of how these
To determine if APHIS improved its controls for regulating
                                                                          agencies’ human resources departments review
the movement of dangerous biological agents and toxins
                                                                          applicants’ credentials, OIG concluded that USDA needs to
(referred to as “select agents”), OIG assessed whether
                                                                          strengthen its hiring processes to ensure that candidates
entities licensed by APHIS complied with regulations
                                                                          are qualified for Federal veterinarian positions. We found
governing the possession, use and transfer of these
                                                                          that APHIS and FSIS did not adequately verify prospective
agents. Based on our review of 7 of 59 registered entities,
                                                                          veterinarians’ educational requirements, equivalent
we concluded that APHIS has made progress since our last
                                                                          degrees, and specialized experience when they qualify the
audit, but that the agency needs to strengthen internal
                                                                          applicants for higher pay. For example, agencies often
controls related to monitoring the movement of select
                                                                          accepted photocopies of transcripts submitted by the
agents to alternate facilities, controlling access to select
                                                                          applicant in lieu of official transcripts as proof of
agents, ensuring that individuals handling select agents
                                                                          education. This occurred because the agencies relied
have up-to-date security clearances, and ensuring that
                                                                          primarily on the Office of Personnel Management’s (OPM)
responsible officials are adequately trained. These control
                                                                          generalized guidelines and did not establish agency-




2 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                                Goal 1


specific guidance or procedures to verify and validate                   to ensure that products they use are permitted under the
veterinarians’ credentials. As a result, the Department                  National Organic Program (NOP) requirements for organic
may unknowingly hire unqualified employees to perform                    agriculture. The owner failed to disclose that he used
critical food safety duties. APHIS and FSIS generally agreed             aqueous ammonia, ammonia sulfate, and urea—synthetic
with our recommendations. (Audit Report 50601-0001-31,                   chemicals prohibited under NOP—to produce his organic-
Verifying Credentials of Veterinarians Employed or                       labeled fertilizer products. Gross sales of the fertilizers
Accredited by USDA)                                                      between 2003 and 2008 exceeded $40 million.

Owner of Organic Fertilizer Company Sentenced to                         Former President of Organic Fertilizer Company
78 Months in Federal Prison and Ordered to Pay                           Sentenced to Prison for Selling Synthetic Fertilizer to
$9 Million Judgment                                                      Organic Farms

In November 2012, the owner of one of the largest organic                In November 2012, the former president of an organic
fertilizer manufacturing companies in the country was                    fertilizer company was sentenced in U.S. District Court,
sentenced in U.S. District Court, Eastern District of                    Northern District of California, to serve 364 days in Federal
California, to 78 months in Federal prison, followed by                  prison and ordered to pay a fine of $125,000 for
36 months’ supervised release. In addition, the owner was                defrauding organic farm customers. The former president
ordered to forfeit several cars and pay a personal money                 pled guilty in February 2012 to selling a fertilizer product,
judgment of $9 million. In August 2012, the owner pled                   produced in Salinas, California, that claimed to be
guilty to mail fraud and admitted that from 2003 to                      approved for organic farming use when it actually
January 2009, he defrauded farmers and distributors by                   contained chemical ingredients that were prohibited
fraudulently labeling fertilizers as organic. He also                    under NOP regulations. The president applied for organic
admitted that he submitted false applications and                        certification from OMRI, submitting a fertilizer formula
documentation to have his fertilizers listed as organic by               consisting of authorized ingredients to qualify as organic
the Washington State Department of Agriculture (WSDA)                    on his application; however, while producing the fertilizer,
and the Organic Materials Review Institute (OMRI). OMRI                  he included ammonium chloride, a material prohibited in
is a non-profit organization that provides independent                   organic agriculture. He failed to inform OMRI of the
review of materials to determine their suitability for use in            change in component and falsely told OMRI that nothing
the production, processing, and handling of products                     had changed in the product formulation. This product was
marketed for organic use. Once approved, the                             sold as organic, and more than $6.5 million in gross sales
manufacturer is permitted to market its product as “OMRI                 were realized.
Listed.” Organic farmers rely on WSDA and OMRI listings




                                                                         assists sponsoring local organizations in rehabilitating
RECOVERY ACT
                                                                         high-hazard, aging flood control dams. OIG determined
The Natural Resources Conservation Service (NRCS)                        that, while NRCS was generally effective in implementing
Should Have Better Implemented Recovery Act Funding
for Dam Rehabilitation Projects                                          controls to monitor Recovery Act funds, it did not take
                                                                         necessary steps to inform the Office of Management and
As part of the Recovery Act, NRCS selected 27 dam
                                                                         Budget (OMB), USDA, or the public of key information
rehabilitation projects to receive $44.8 million in funding
                                                                         regarding the projects or to implement OIG’s
through the Watershed Rehabilitation Program, which




                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 3
                                                             Goal 1


recommendations from a prior audit. Specifically, NRCS                projects. Additionally, NRCS did not ensure that websites
did not accurately communicate to USDA and OMB the                    had complete or accurate information on watershed
readiness of the selected projects and the impact of                  rehabilitation projects—such as project certifications and
Recovery Act requirements on the program, which, by                   updated information about the 27 projects and their
design, is not well suited to meet the accelerated                    funding. Finally, NRCS has not fully corrected deficiencies
timeframes and unique challenges posed by the Recovery                with its dam inventory and cost monitoring tools that OIG
Act. As a result, NRCS spent almost $943,000 on eight                 identified in a prior audit. NRCS agreed with our
projects that did not meet Recovery Act goals and,                    recommendations. (Audit Report 10703-0001-At,
therefore, could not be completed. Funds allocated to                 Recovery Act—Rehabilitation of Flood Control Dams)
these projects had to be deobligated or allocated to other




4 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                                         Goal 1


GOVERNMENTWIDE ACTIVITIES—GOAL 1                                                  U.S. Marshals Service Fugitive Task Forces.

Review of Legislation, Regulations, Directives, and                               OIG agents in Minnesota, Mississippi, and Ohio participate on
Memoranda                                                                         these task forces, which were established under the Presidential
                                                                                  Threat Protection Act of 2000. The purpose of these task forces is
Firearms Trafficking Act of 2012.
                                                                                  to locate and apprehend the most dangerous fugitives and assist
OIG provided comments on a draft U.S. Department of Justice bill                  in high-profile investigations. In addition to providing assistance
entitled the “Firearms Trafficking Act of 2012.” The draft bill                   in locating fugitives, task forces can provide help in serving
added a new provision to the Gun Control Act that would penalize                  warrants.
“[a]ny person . . . who knowingly purchases any firearm . . . with
                                                                                  Arrowhead Counter-Terrorism Task Force.
intent to transfer it to any other person.” We noted that the
United States, States, and their subdivisions routinely purchase                  OIG participates in a group of regional law enforcement and
firearms for the official use of their law enforcement personnel.                 emergency response providers, led by the FBI field office in
Recognizing that the United States, States, and their subdivisions                Duluth, Minnesota, which meets monthly for training sessions and
are generally exempted from provisions in the Gun Control Act,                    to share information on various terrorist organizations, as well as
OIG recommended that the exemption’s language could be                            related topics such as crisis response scenarios.
revised slightly to make it very clear that the United States, States,
                                                                                  Anti-Terrorism Advisory Councils.
and their subdivisions are exempted from the new proposed
                                                                                  OIG participates on Anti-Terrorism Advisory Councils in many
section as well.
                                                                                  judicial districts throughout the country. These councils are
Participation on Committees, Working Groups, and                                  umbrella organizations including local, State, and Federal agencies
Task Forces
                                                                                  and private-sector security representatives that work with the
The Federal Bureau of Investigation’s (FBI) National and Local                    U.S. Attorney’s Offices for their geographic areas to disrupt,
Joint Terrorism Task Forces.
                                                                                  prevent, and prosecute terrorism through intelligence-sharing,
One OIG special agent is assigned full time to the national task                  training, strategic planning, policy review, and problem-solving.
force, and other special agents work with local task forces. While
                                                                                  San Bernardino Rural Crimes Task Force and San Bernardino
the national task force special agent attends threat briefings and                Animal Cruelty Task Force.
provides terrorist intelligence products to OIG and other USDA
                                                                                  OIG is one of several law enforcement agencies participating on
agencies and offices, local task forces work on matters that
                                                                                  task forces to combat crimes in rural areas in southeastern
involve both the investigation of criminal activity and intelligence-
                                                                                  California, with a special focus on animal-fighting investigations.
gathering concerning individuals or entities that may have
connections to terrorist activity or may provide support for                      ONGOING REVIEWS FOR GOAL 1
terrorist activity. Overall, OIG’s participation provides an
excellent conduit for sharing critical law enforcement intelligence                   inspection and enforcement activities at swine
and has broadened the FBI’s and other law enforcement agencies’                        slaughterhouses (FSIS),
knowledge of how to conduct criminal investigations connected
                                                                                      FSIS’ and AMS’ field-level workforce challenges (FSIS, AMS),
to food and agriculture.
                                                                                      oversight of research facilities (APHIS),
The FBI’s Joint Interagency Agroterrorism Working Group.                              implementation of PHIS for domestic inspection (FSIS),

OIG’s Emergency Response Team continues to participate in this                        Plant Protection and Quarantine Preclearance Program

working group, which develops protocols and procedures for the                         (APHIS),

FBI, APHIS, and OIG to coordinate their response to agroterrorism.                    NOP organic milk operations (AMS).




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 5
                                                               Goal 2



Integrity of Benefits
                                                                                  OIG is also working to conclude its oversight

OIG Strategic Goal 2:                                                   work of the $28 billion in funding USDA received under the
                                                                        Recovery Act. The Recovery Act provided OIG with
Reduce program vulnerabilities and strengthen
                                                                        $22.5 million for “oversight and audit of programs, grants,
program integrity in the delivery of benefits to
                                                                        and activities funded by this Act and administered by the
program participants
                                                                        Department of Agriculture.” As of March 31, 2013, OIG
OIG conducts audits and investigations to ensure or
                                                                        has completed 75 Recovery Act projects. Five projects are
restore integrity in various USDA benefit and entitlement
                                                                        in process, focused on how well USDA is fulfilling the law’s
programs, including a variety of programs that provide
                                                                        transparency and reporting requirements.
payments directly and indirectly to individuals or entities.
                                                                                  In the first half of FY 2013, we devoted
Some of the programs are among the largest in
                                                                        25 percent of our total direct resources to Goal 2, with
Government: SNAP alone accounted for approximately
                                                                        94 percent of these resources assigned to critical/high-
$80 billion in FY 2012 benefits, while over $19 billion
                                                                        impact work. A total of 100 percent of our audit
annually is spent on USDA farm programs. Intended
                                                                        recommendations under Goal 2 resulted in management
beneficiaries of these programs include the working poor,
                                                                        decision within 1 year, and 82 percent of our investigative
hurricane and other disaster victims, and schoolchildren,
                                                                        cases resulted in criminal, civil, or administrative action.
as well as farmers and other rural residents. These
                                                                        OIG issued nine audit reports under Goal 2 during this
programs support nutrition, farm production, and rural
                                                                        reporting period. OIG’s investigations under Goal 2
development.
                                                                        yielded 325 indictments, 259 convictions, and about
                                                                        $72 million in monetary results during this reporting
                                                                        period.


  Management Challenges Addressed Under Goal 2

           Strong, Integrated, Internal Control Systems Still Needed (also under Goals 1, 3, and 4)
           Material Control Weaknesses in Civil Rights Should Be Mitigated
           Efforts to Identify, Report, and Reduce Improper Payments Need to Be Strengthened (also
            under Goal 3)


EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR                            vendors were not disqualified as required and could
GOAL 2
                                                                        redeem an estimated $6.6 million in WIC benefits during
The Food and Nutrition Service (FNS) Should Improve Its                 their required periods of disqualification. Also, the Florida
Oversight of WIC State Agencies
                                                                        State agency did not conduct compliance investigations on
FNS management evaluations did not identify and correct                 24 of its 35 high-risk vendors and did not treat smaller
significant issues in the vendor management processes at                vendors in an equitable manner compared to large chain
two State agencies operating WIC. These State agencies                  stores. These deficiencies could allow vendor violations,
lacked sufficient controls to track vendor violations for               including excessive charges and the sale of unauthorized
42 vendors (2 in Illinois and 40 in Florida) and ensure                 food items, to go undetected. We also found that,
timely and appropriate sanctions. As a result, these                    contrary to program regulations, the Illinois State agency




6 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                               Goal 2


did not disqualify 3 of the 11 WIC vendors that were also               improve the implementation and monitoring of food
disqualified from SNAP during a 3-year period. FNS                      service management company contracts. FNS agreed with
generally agreed with our recommendations. (Audit                       our recommendations. (Audit Report 27601-0001-23,
Report 27601-0038-Ch, Vendor Management in the Food                     NSLP Food Service Management Company Contracts)
and Nutrition Service’s Special Supplemental Nutrition
                                                                        The Risk Management Agency (RMA) Needs to Improve
Program for Women, Infants, and Children)                               How It Administers Crop Insurance for Organic Crops

FNS Should Improve Controls Over the National School                    Our review of how RMA designed Federal crop insurance
Lunch Program (NSLP) and Food Service Management
                                                                        coverage for crops produced through organic farming
Company Contract Services
Management Company Contracts                                            practices found that transitional yields offered to organic
In response to a congressional request, OIG evaluated FNS’
                                                                        producers overstated the actual production capabilities of
oversight of NSLP and food service management
                                                                        farmers producing crops using organic farming practices.
companies’ contracts. While FNS has implemented several
                                                                        Due to excessive insurance coverage and higher indemnity
controls to ensure that NSLP funds and USDA-donated
                                                                        payments for 35 of 48 crop policies with losses, RMA paid
foods are used solely to benefit the program, it has not
                                                                        at least $952,000 of $2.56 million in additional indemnities
taken sufficient steps to ensure that those controls are
                                                                        to insured producers for these policies. We also found
followed. Our review of 18 school food authorities (SFAs)
                                                                        that approved insurance providers (AIP) violated RMA
showed that 11 did not exercise sufficient management
                                                                        policy and did not require their adjusters to use the
oversight to ensure they received the full benefit of
                                                                        insured producers’ organic crop documents to assess good
purchase discounts and rebates and the value of USDA-
                                                                        organic farming practices. We recommended that RMA
donated foods. Although FNS regulations list the SFA as
                                                                        reduce transitional yields for crops produced using organic
the responsible entity for ensuring compliance with
                                                                        farming practices, and also reiterate that loss adjusters
NSLP requirements, the majority of SFAs reviewed did
                                                                        should carry out additional loss adjustment procedures for
little or no monitoring of food service management
                                                                        crops produced using organic farming practices, such as
companies’ operations or their compliance with contract
                                                                        requiring them to maintain supporting documents. RMA
terms. FNS was not aware of the SFAs’ inadequate
                                                                        agreed with our recommendations. (Audit Report 05601-
monitoring because it did not require its regional officials
                                                                        0006-KC, Risk Management Agency, RMA: Federal Crop
to assess the State agencies’ oversight of, or the SFAs’
                                                                        Insurance—Organic Crops)
compliance with, NSLP requirements or contract terms. As
                                                                        The Office of Advocacy and Outreach (OAO) Needs to
a result, we questioned almost $1.7 million in unallowable
                                                                        Improve How it Manages its Grant Program for Socially
costs and USDA-donated foods that could not be                          Disadvantaged Farmers and Ranchers
accounted for.
                                                                        OIG reviewed how well OAO was monitoring its grantees
          We recommended that FNS work with the State                   and found that OAO selected applicants to receive FY 2012
agencies to determine if the $1.2 million in questioned                 grants through the Outreach and Assistance for Socially
program costs should be collected from food service                     Disadvantaged Farmers and Ranchers Program even
management companies and determine whether the                          though these applicants may not have been the most
approximately $0.5 million in USDA-donated foods were                   meritorious and deserving candidates. OAO officials
properly credited or used in the SFAs’ school food service.             disregarded regulatory requirements and guidelines cited
FNS should also evaluate its overall management                         in the Funding Opportunity Announcement in making
evaluation process and oversight system and take steps to               those selections. Also, OAO had no documentation to




                                                               USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 7
                                                                Goal 2


support its decisions and could not explain why some                         by 36 months of probation. He was also ordered to
applicants that appeared more deserving were not                             pay $21 million in restitution (approximately
selected to receive grant funds. In response to our work,                    $6.7 million of the restitution was owed jointly and
OAO reselected applicants for the Secretary’s                                severally with three co-defendants who were
consideration in July 2012. We evaluated the process used                    previously sentenced).
to reselect applicants and concluded that it was more
                                                                            The investigation also disclosed that a tobacco broker
impartial and transparent than the process used to select
                                                                             purchased tobacco with cash or sold it using nominee
the initial applicants. We also found that OAO needs to
                                                                             names through his independent receiving stations in
strengthen and document the policies, procedures, and
                                                                             North Carolina and Kentucky, and then resold it to a
internal controls related to its grant management process.
                                                                             national tobacco company. The broker was charged
OAO agreed with our recommendations. (Audit Report
                                                                             in October 2012 with conspiracy to make materially
91099-0001-21, Office of Advocacy and Outreach—
                                                                             false statements and to commit mail and wire fraud,
Controls Over the Grant Management Process of the
                                                                             and conspiracy to commit money laundering. He pled
Office of Advocacy and Outreach)
                                                                             guilty to the charges in December 2012. In March
Several More Sentenced to Long Prison Terms and                              2013, he was sentenced to 66 months in prison and
Millions in Restitution in North Carolina Tobacco Crop
                                                                             ordered to pay more than $13 million in restitution.
Insurance Cases
                                                                             This investigation was worked jointly with the Internal
As we previously reported in other SARCs, a large number
                                                                             Revenue Service-Criminal Investigation (IRS-CI) and
of farmers in North Carolina sold tobacco in nominee
                                                                             RMA’s Special Investigations Branch.
names to hide their production and then filed false crop
                                                                            As the result of a related case, the owner of a tobacco
insurance claims. Farmers, warehouse operators, crop
                                                                             warehouse was sentenced in December 2012 in U.S.
insurance agents, crop insurance adjusters, and check
                                                                             District Court, Eastern District of North Carolina, for
cashers assisted in the filing and concealment of the false
                                                                             conspiracy to commit mail and wire fraud. The
claims and the cashing of the nominee checks.
                                                                             investigation revealed that, between August and
    In January 2012, an insurance adjuster was charged in
                                                                             October 2007, the warehouseman conspired with
     U.S. District Court, Eastern District of North Carolina,
                                                                             unknown producers and a tobacco company
     with conspiracy to make false statements, make
                                                                             employee to conceal the owners of approximately
     material false statements, and commit mail and wire
                                                                             $578,379 worth of tobacco. The warehouseman and
     fraud; wire fraud; and retaliation against a witness.
                                                                             the tobacco company employee created tobacco
     From 1996 to 2007, the adjuster accepted cash
                                                                             contracts in nominee names to sell and falsely
     payments to falsify crop insurance claims regarding
                                                                             identify more than 393,969 pounds of tobacco. The
     the scope of crop losses. During the investigation,
                                                                             owner was sentenced to 60 months’ probation with
     the adjuster threatened to do bodily harm to a
                                                                             the first 18 months spent in home confinement and
     cooperating defendant and his wife because of
                                                                             ordered to pay an $80,000 fine.
     information the defendant provided investigators
                                                                            Another related investigation disclosed that, between
     regarding the adjuster’s role in the crop insurance
                                                                             September 2005 and September 2011, a crop
     conspiracy. In February 2012, the adjuster pled guilty
                                                                             insurance agent assisted his clients in hiding tobacco
     to all of the charges. In February 2013, the adjuster
                                                                             production and filing false crop insurance claims. His
     was sentenced to 48 months in prison, to be followed




8 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                               Goal 2


     actions caused $7.4 million in fraudulent Federal crop             fraudulent invoices to the State Regulatory Trade Group
     insurance indemnity payments and $1.0 million in                   responsible for administering the Foreign Agricultural
     fraudulent crop hail indemnity payments to be paid                 Service’s (FAS) Market Access Program. The goal of this
     to his insured clients. In February 2013, in U.S.                  program is to develop, maintain, or expand commercial
     District Court, Eastern District of North Carolina, he             export markets for U.S. agricultural products by cost
     was sentenced to 108 months’ imprisonment,                         sharing overseas marketing activities. From February 2007
     followed by 36 months’ supervised release, and                     to August 2009, this individual submitted claims to the
     ordered to pay $7.4 million in restitution to RMA and              trade group for reimbursement for overseas television
     $1 million in restitution to various private insurance             advertising along with copies of checks which purportedly
     companies.                                                         documented payments to two television networks. The
                                                                        investigation determined that one of the television
Strawberry Farmer and Wife in Northern California Filed
False Crop Losses to Receive Funds from the Crop                        networks did not air any commercials or receive any
Disaster Program
                                                                        payments for advertising. In January 2012, the owner was
In February 2013, a strawberry farmer was sentenced in                  charged in U.S. District Court, Northern District of Georgia,
U.S. District Court, Northern District of California, to                with wire fraud, false statements, conspiracy to launder
12 months and 1 day in prison, followed by 36 months of                 money, and money laundering. The owner pled guilty to
supervised release and ordered to pay restitution (jointly              wire fraud charges and, in November 2012, was sentenced
and severally) in the amount of $223,484. The farmer was                to 12 months and 1 day in prison and 6 months of home
also debarred from participating in all USDA programs, as               confinement, and was ordered to pay $342,500 in
well as prohibited from contracting specifically with the               restitution.
Farm Service Agency (FSA). In 2005, the farmer falsely
                                                                        Maine Property Management Company Official Guilty of
claimed crop losses by a joint venture business to increase             Equity-Skimming
the payment he could receive for disaster losses. In
                                                                        A joint investigation with the U.S. Department of Housing
addition, the farmer and his spouse were responsible for
                                                                        and Urban Development (HUD) OIG and the FBI revealed
an additional $63,484 loss attributable to a false claim
                                                                        that, between August 2005 and August 2007, a residential
relating to the Non-Insured Crop Disaster Assistance
                                                                        property management company that managed housing
Program. In July 2009, the couple was charged with two
                                                                        projects funded through RD’s Section 515 program and
counts of conspiracy to make false statements to the
                                                                        HUD’s Section 236 program removed at least $987,268 in
Commodity Credit Corporation (CCC) and one count of
                                                                        funds from project accounts and tenant security deposit
making a false statement to the CCC. In June 2012, the
                                                                        accounts without authorization and in violation of
farmer’s spouse was placed on pre-trial diversion and
                                                                        program regulations. The investigation also revealed that
found to be jointly and severally liable for the $223,484 in
                                                                        the company charged ineligible expenses to the projects,
false disaster aid claims.
                                                                        made payments that lacked sufficient supporting
                                                                        documentation, did not disclose relationships with
                                                                        companies that shared financial or other interests,
Georgia Businessman Sentenced for Submitting False
Cost Reimbursement Claims for Overseas Promotional                      maintained financial records that were incomplete and
Activities
                                                                        inaccurate, and falsely reported account activity. The
An investigation, conducted jointly with IRS-CI, disclosed              company’s chief executive officer and part-owner pled
that the owner of a food company in Georgia submitted                   guilty to equity-skimming. He was sentenced to 6 months’




                                                               USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 9
                                                                Goal 2


home confinement and 36 months’ probation and ordered                    incarceration and ordered to pay $33,564 in restitution
to pay $25,000 in restitution and a $200 special                         and a $40,000 fine. Two businessmen were found guilty
assessment.                                                              by a Federal jury in March 2012 of multiple offenses,
                                                                         including embezzlement, kickbacks, and lying to
Businessmen Involved in a Fraudulent Scheme to Obtain
an RD-Guaranteed Loan                                                    investigators. One of these men has been sentenced to
                                                                         55 months’ incarceration and 36 months of probation and
As we previously reported in the SARC, First Half of FY
                                                                         was ordered to pay a fine of $10,000. Sentencing is
2012, a group of individuals committed a number of illegal
                                                                         pending for the other businessman. The fifth individual
acts to obtain a $27.3 million RD-guaranteed loan to
                                                                         charged died after he was indicted.
purchase a rural Mississippi hospital. Other crimes were
committed while they operated the hospital. The hospital                 Louisiana Woman Embezzled Funds from RD-Financed
                                                                         Water System
loan went into default in 2007, resulting in a multi-million-
dollar loss to RD. As a result of our investigation, five                Our investigation disclosed that a former employee of a
individuals were charged in U.S. District Court, Northern                local Louisiana water system committed felony theft by
District of Mississippi, with making false statements, mail              converting funds to her own personal use that were
fraud, theft, bribery, embezzlement, and health care fraud.              pledged as security to RD for a community facilities loan.
A physician who pled guilty to mail fraud, theft, and                    The former employee fraudulently obtained the funds
bribery was sentenced in November 2012 to serve                          from the bank accounts of the water system. In January
24 months of home confinement and 36 months of                           2013, in a Louisiana State court, she was sentenced to
probation, and was ordered to pay $400,000 in restitution.               36 months’ incarceration and 60 months of probation and
A county administrator who pled guilty to the same                       was ordered to pay $411,354 in restitution.
charges was sentenced in February 2013 to 14 months’




SNAP TRAFFICKING CASES                                                        previously reported in the SARC, Second Half of
                                                                              FY 2011, the owner and his brother were charged
A significant portion of OIG’s investigative resources are
                                                                              with SNAP trafficking, pled guilty, and were
dedicated to ensuring the integrity of SNAP by combating
                                                                              sentenced to terms of imprisonment and ordered to
the practice of exchanging benefits for cash. Working
                                                                              pay restitution. In recent activity, the owner’s wife
closely with FNS, OIG has concluded the following SNAP-
                                                                              pled guilty to aiding and abetting SNAP trafficking. In
related investigations and prosecutions in the first half of
                                                                              November 2012, she was sentenced to 36 months’
FY 2013:
                                                                              probation, the first 6 months to be spent in home
    Wife of Deported Felon Admits Role in SNAP
                                                                              confinement, and ordered to pay $1.6 million in
     Trafficking Scheme. In 1996, as a result of an OIG
                                                                              restitution jointly and severally with her husband.
     investigation, a Connecticut store owner was
                                                                             Four Sentenced to Prison for Crimes Committed at
     convicted of SNAP trafficking and deported. He
                                                                              Dayton Market. After a joint investigation with an
     illegally re-entered the United States and, in 2009 and
                                                                              Ohio Organized Crime Investigations Commission task
     2010, OIG conducted another investigation after the
                                                                              force disclosed that a market in Dayton, Ohio, was
     store owner opened several stores in Hartford,
                                                                              trafficking large amounts of SNAP benefits, selling
     Connecticut, using other individuals’ names. As
                                                                              firearms and narcotics, and trafficking in counterfeit




10 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                                 Goal 2


    merchandise, four individuals associated with the                         in restitution failed to surrender himself to the
    market were charged in U.S. District Court, Southern                      Bureau of Prisons in June 2012, he fled the country
    District of Ohio, with a variety of criminal offenses for                 and was apprehended in Belize. When officials in
    their roles in the $3.8 million SNAP trafficking and                      Belize learned that he was wanted in the United
    money laundering scheme. All four pled guilty. One                        States, they turned him over to U.S. law enforcement.
    of the individuals was sentenced in October 2012 to                       He later pled guilty to failure to appear charges and
    12 months and 1 day in prison, followed by                                was sentenced in November 2012 to 12 months and
    36 months’ probation, fined $200, and ordered to pay                      1 day for this new charge, to be served consecutively
    a $3.8 million money judgment. In December 2012                           with his previous 41-month sentence for food stamp
    and February 2013, three individuals received                             trafficking.
    sentences of 12 months and 1 day in prison,
                                                                             Chicago Couple Ordered to Repay USDA Over
    36 months’ supervised release, and 100 hours of
                                                                              $1.6 Million in Stolen SNAP Benefits. From June
    community service; they were ordered to forfeit
                                                                              2004 through June 2008, a Chicago couple conspired
    $76,209 and pay a $3.8 million money judgment, as
                                                                              to commit a variety of offenses, including SNAP fraud,
    well as $200 in special assessments.
                                                                              wire fraud, and money laundering. In June 2010, the
   Owner of Specialty Market in Flint, Michigan,
                                                                              couple was indicted in U.S. District Court, Northern
    Sentenced to Prison and Restitution. The owner of a
                                                                              District of Illinois, on eight counts of wire fraud. The
    SNAP-authorized specialty market in Flint was found
                                                                              man and woman were sentenced separately in May
    guilty of conspiracy to commit food stamp fraud at
                                                                              2011 and October 2012. They were given 60 and
    trial in U.S. District Court, Eastern District of
                                                                              30 months’ imprisonment, respectively, and ordered
    Michigan. Our investigation determined the owner of
                                                                              to pay restitution to USDA for over $1.6 million. They
    the market developed a network of individuals who
                                                                              were also ordered to forfeit assets in the same
    obtained Michigan Bridge Cards (Michigan’s SNAP
                                                                              amount.
    electronic benefit transfer (EBT) cards) from
    recipients, and then made phone calls to the store                       Chicago Fugitive Returns to Face Consequences

    where manual SNAP transactions were conducted.                            While Partner in Crime Remains at Large. Two small

    During January 2013, the owner of the market was                          business store owners in Chicago exchanged SNAP

    sentenced to 51 months’ incarceration and                                 benefits for cash with estimated fraud amounts

    36 months’ supervised release and was ordered to                          exceeding $900,000. In February 2012, agents from

    pay $612,981 in restitution to FNS. During December                       the U.S. Secret Service and OIG executed a Federal

    2012, a co-conspirator was sentenced to 60 months’                        search warrant at the business in Chicago where

    incarceration and 36 months’ supervised release and                       approximately $131,000 was seized. Shortly

    was ordered to pay $612,981 in restitution joint and                      thereafter, the two business owners fled the United

    several with the owner. This investigation was                            States. In March 2012, one of the store owners

    conducted jointly with the FBI.                                           returned to Chicago and was arrested while the other
                                                                              remained overseas. In April 2012, each was indicted
   Convicted Minnesota Store Owner Flees the Country
                                                                              in U.S. District Court, Northern District of Illinois, on
    and is Sentenced to More Prison Time. After a
                                                                              seven counts of wire fraud. In October 2012, one
    Minnesota store owner who had been sentenced to
                                                                              store owner was sentenced to 36 months’
    41 months in prison and ordered to pay $2.4 million



                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 11
                                                             Goal 2


    imprisonment and ordered to pay $921,649 in                          California Grocery Store Owner Sentenced to
    restitution. On the same day, a preliminary order of                  168 Months in Prison Upon Return From Russia. In
    forfeiture was granted for over $140,000. The other                   October 2012, a store owner was sentenced in U.S.
    store owner remains a fugitive.                                       District Court, Central District of California, to serve
                                                                          168 months in prison, followed by 36 months’
   Indiana Store Owner and Sons Plead Guilty to Wire
                                                                          supervised release, and was ordered to pay
    Fraud and Theft. From February 2009 through
                                                                          $6.1 million in restitution and a $500 assessment.
    December 2010, the owners of a Gary, Indiana,
                                                                          The owner, one of multiple defendants in this
    convenience store conspired to commit a variety of
                                                                          investigation, had pled guilty in May 2007 to one
    offenses, including SNAP fraud and wire fraud. In
                                                                          count each of conspiracy, wire fraud, food stamp
    March 2011, agents from OIG, IRS-CI, and the Indiana
                                                                          trafficking, money laundering, and false statements,
    State Police conducted search warrants at the store
                                                                          as well as forfeiting assets, and then fled the country
    and the store owner’s residence where they seized
                                                                          to Russia. The OIG case agent coordinated the
    over $1 million in cash and jewelry. In April 2012, in
                                                                          owner’s arrest with the U.S. Marshals after being
    U.S. District Court, Northern District of Indiana, the
                                                                          notified by the Attaché Resident Agent in Charge of
    store owner pled guilty to one count of wire fraud
                                                                          the U.S. Secret Service in Moscow that the owner was
    and his two sons pled guilty to one count each of
                                                                          requesting re-entry into the United States. In March
    theft of SNAP benefits. In September 2012, each son
                                                                          2011, the U.S. Marshals arrested the owner at the Los
    was sentenced to 12 months of probation and
                                                                          Angeles International Airport. As previously reported
    ordered to pay $181 in restitution and a $50 special
                                                                          in the SARC, First Half of FY 2008 and the SARC, First
    assessment. In December 2012, the owner was
                                                                          Half of 2009, two store employees who participated
    sentenced to 41 months in prison and 24 months’
                                                                          in the scheme were sentenced to 57 months and
    supervised release and ordered to pay $1.4 million in
                                                                          36 months in prison and ordered to pay $2.7 million
    restitution and a $100 special assessment.
                                                                          and $238,000 in restitution, respectively. One co-
   North Texas Store Owner Sentenced for SNAP
                                                                          conspirator remains a fugitive.
    Trafficking and Operating an Illegal Money
                                                                         California Owner Sentenced to 12 Months for Role in
    Transmitting Business. In January 2013, a north
                                                                          SNAP Trafficking. In October 2012, a store owner
    Texas grocery store owner was sentenced in U.S.
                                                                          pled guilty in U.S. District Court, Central District of
    District Court, Northern District of Texas, after he
                                                                          California, to SNAP trafficking and was sentenced to
    pled guilty to SNAP trafficking, wire fraud, and
                                                                          12 months and 1 day in prison and 36 months of
    running an illegal money transmitting business. The
                                                                          supervised release and was ordered to pay
    store owner was sentenced to 57 months’
                                                                          $1.3 million in restitution. In addition to exchanging
    imprisonment and 36 months’ supervised release and
                                                                          SNAP benefits for cash, the owner accepted SNAP
    was ordered to pay $1.4 million in restitution. During
                                                                          benefits for ineligible items and allowed SNAP
    the investigation, SNAP recipients admitted to
                                                                          recipients to have credit accounts at the store that
    exchanging SNAP benefits for cash and to using SNAP
                                                                          they later paid with their SNAP benefits, which
    benefits to wire money to friends and family
                                                                          violates program rules.
    members in North Africa.




12 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                                Goal 2


    Five Individuals in Georgia Sentenced to Lengthy                      ordered to pay $6.3 million in restitution jointly and
     Prison Terms in a $5 Million Fraud Conspiracy. As                     severally with the other codefendants; another store
     we first reported in the SARC, Second Half of FY 2012,                owner was also sentenced to 60 months in prison and
     our investigation determined that an organized group                  ordered to forfeit three sports cars and $113,980 in
     of individuals opened 13 storefront operations in                     bank holdings. In February 2013, a store owner was
     Georgia to defraud SNAP and WIC. From February                        sentenced to 51 months in prison, another owner was
     2009 to June 2011, this group illegally purchased over                sentenced to 57 months in prison, and the mother of
     $5 million in SNAP and WIC benefits. To date, 16                      two of the store owners was sentenced to 37 months
     individuals have been charged in U.S. District Court,                 in prison. This case was worked jointly with the
     Southern District of Georgia, with conspiracy or theft                Savannah-Chatham Metropolitan Police Department,
     of Government funds. In November 2012, one store                      IRS-CI, and the U.S. Secret Service.
     owner was sentenced to 63 months in prison and




    RECOVERY ACT REVIEWS                                                  RUS Needs to Improve Controls for Deobligating
                                                                          Funds After Projects Are Completed
    RD Should Ensure that Lenders Adequately Service
    Business and Industry (B&I) Loans                                     RUS designed and implemented performance

    RD should strengthen its controls to ensure that                      measures for Water and Waste Disposal System

    lenders receiving Recovery Act-funded B&I loan                        (WWD) loans and grants that effectively measured

    guarantees complete all servicing actions and correctly               how RUS used Recovery Act funds to achieve Recovery

    report data used to determine program performance.                    Act goals. We found that RUS had an effective system

    Specifically, lenders are not properly servicing                      for gathering data specific to the reported measures

    Recovery Act-funded B&I guaranteed loans, and RD                      and could reasonably ensure reporting was proper.

    State office personnel are not adequately monitoring                  We also assessed controls over project expenditures

    the loan servicing. Based on issues identified with                   and concluded that they were reasonably effective to

    37 of 53 loans in our statistical sample, we estimate                 ensure that RUS used Recovery Act funds to complete

    that lenders did not correctly service 72 percent of the              projects as intended. However, our review disclosed

    loans. In addition, RD did not adequately monitor the                 that RUS needs to improve controls over grant funds

    lenders of 33 of the 53 loans, or 64 percent of the                   remaining after projects are complete. Specifically, we

    loans in the audit universe. As a consequence, there is               identified a borrower with multiple WWD projects that

    a greater risk that problem loans are going undetected.               improperly transferred grant funding from one

    RD generally agreed with our recommendations, and                     completed project to another project, which is

    we accepted management decision for most of the                       prohibited. This occurred due to weaknesses in

    recommendations. (Audit Report 34703-0001-32,                         controls for deobligating funds remaining after

    American Recovery and Reinvestment Act—Business                       projects are completed, and also, in part, because RD

    and Industry Guaranteed Loans—Phase 3)                                does not currently track project expenditures at the
                                                                          national level. RUS generally agreed with our
                                                                          recommendations. (Audit Report 09703-0001-22,
                                                                          Rural Utilities Service Controls Over Recovery Act



                                                               USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 13
                                                             Goal 2


   Water and Waste Loans and Grants Expenditures and                  FY 2011—OIG reviewed the program and determined
   Performance Measures)                                              that RD needs to strengthen its internal reviews.

   Idaho Construction Company Owner Sentenced                               Specifically, we found that the agency did not
   in Shell Company Scheme to Receive Recovery
                                                                      identify loans with questionable eligibility prior to
   Act Funds
                                                                      paying loss claims, reduce loss claims when lenders
   In January 2013, an Idaho construction company
                                                                      improperly serviced loans, and pay lenders for only
   owner was sentenced in U.S. District Court, District of
                                                                      eligible expenses. The agency also did not have
   Idaho, for masterminding the establishment of two
                                                                      sufficient controls to fully justify approvals of pre-
   shell corporations used to obtain Small Business
                                                                      foreclosure sales, referred to as “short sales.” Given
   Administration (SBA) set-aside status in order to be
                                                                      the results of our statistical sample of 102 loss claims,
   awarded Recovery Act and other Federal contracts
                                                                      we project that the agency paid about $87 million in
   that his company and the shell corporations would
                                                                      loss claims that were at risk of being improper
   otherwise not have qualified for. In September 2012,
                                                                      payments due to questionable loan eligibility, and paid
   the owner was charged with and pled guilty to one
                                                                      about $254 million in loss claims that were at risk of
   count of wire fraud and criminal forfeiture allegations
                                                                      being improper payments due to questionable lender
   in the amount of $250,000; he was sentenced to
                                                                      servicing. We also project that, across the program,
   8 months of home confinement, 80 hours of
                                                                      RD overpaid $6.28 million related to 6,607 claims
   community service followed by 24 months of
                                                                      submitted by lenders for loss reimbursement.
   probation; criminal forfeiture of $150,000, and
                                                                            To improve program administration and better
   ordered to pay a $20,000 fine. We previously reported
                                                                      ensure that losses to the Government are minimized,
   in the SARC, Second Half of FY 2012, on the sentences
                                                                      RD should conduct a review of its loss claims process
   imposed on the owners of the two other Idaho
                                                                      to address loans with questionable eligibility, lenders
   construction shell companies who submitted false
                                                                      who improperly service delinquent loans, and loss
   statements to the Agricultural Research Service (ARS),
                                                                      claims that contain unallowable costs. RD agreed with
   SBA, and the Department of the Interior. These
                                                                      13 of the report’s 23 recommendations. We will work
   owners misrepresented themselves as Historically
                                                                      with the agency to resolve the outstanding
   Underutilized Business Zone set-aside firms to obtain
                                                                      recommendations. (Audit Report 04703-0003-Hy, Loss
   contracts they were not entitled to. One of the
                                                                      Claims Related to Single Family Housing Guaranteed
   contracts fraudulently obtained was an ARS Recovery
                                                                      Loans)
   Act contract totaling $274,383.
                                                                      NRCS Needs to Improve its Operation of the
   RD Needs to Improve its Reviews of Single
                                                                      Emergency Watershed Protection Program (EWPP)
   Family Housing Loans Before it Reimburses
   Lenders for Defaults
                                                                      In EWPP, NRCS acquires easements from owners of
   In order to provide low- and moderate-income people                floodplain lands to restore and enhance the
   who live in rural areas with an opportunity to own                 floodplain’s function and values. OIG determined that
   homes, the Federal Government reimburses up to                     NRCS needs to target funds to those easements most
   90 percent of the original loan amount if a borrower               consistent with program goals, require that
   defaults on a loan. Given increases in such loss                   documentation supports eligibility determinations,
   claims—from $103 million in FY 2008 to $295 million in             ensure easements are maintained consistent with




14 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                           Goal 2


program goals, and compensate landowners                             State we reviewed, NRCS overcompensated the
appropriately. Without a clear definition of “natural                landowners for seven easements with structures.
conditions,” however, personnel did not always                       NRCS agreed with all recommendations. (Audit Report
develop restoration plans adequately and ensure the                  10703-0001-31, Recovery Act—NRCS’ Emergency
restoration of floodplain functions and values to the                Watershed Protection Program Floodplain Easements
greatest extent practicable. Further, NRCS did not                   and Watershed Operations Effectiveness Review)
always develop and maintain documents to support its
determinations that offered lands were eligible and its
decisions to prioritize among applications.
Additionally, NRCS did not provide adequate guidance
to landowners regarding program rules, such as
actions prohibited on easements; as a result, land was
not always maintained in a manner consistent with the
program’s goal of restoring floodplains to a natural
condition. Finally, NRCS compensated five landowners
in our sample improperly, with errors totaling
$139,474. NRCS agreed to six of the report’s seven
recommendations. (Audit Report 10703-0005-KC,
Recovery Act—NRCS’ Emergency Watershed
Protection Program Floodplain Easements Field
Confirmations)

NRCS Should Improve How It Operates and Reports
on the Accomplishments of the Watershed and
Floodplain Easements Programs

OIG determined that NRCS needs to establish
outcome-oriented performance measures it can use to
gauge the effectiveness of its watershed operations
and floodplain easements programs. While the agency
established output-oriented measures to track
progress, these measures did not provide adequate
information on how effective the programs were at
accomplishing the goals of the Recovery Act, which
include creating jobs, assisting those most impacted by
the recession, and investing in environmental
protection. In addition, NRCS did not allow the use of
appraisals to determine the value of properties with
buildings it acquired through the floodplain easements
program, which led to the purchase of some properties
at prices in excess of the established value. In one




                                                          USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 15
                                                                Goal 2


GOVERNMENTWIDE ACTIVITIES—GOAL 2                                         enforcement agencies in the investigation of organized

Testimonies                                                              criminal activity. OIG investigators have participated on
                                                                         the task force since 1996 and have conducted
The House Committee on Appropriations’ Subcommittee
on Agriculture, Rural Development, Food and Drug                         investigations involving welfare recipients, food stamp
Administration, and Related Agencies.                                    trafficking, mortgaged farm equipment stolen from

On March 21, 2013, Inspector General Phyllis Fong                        farmers, stolen property trafficking, illegal drugs, and dog

testified on OIG’s recent oversight of USDA programs.                    fighting.

OIG’s FY 2012 audit and investigative work garnered                      Bridge Card Enforcement Team.

potential monetary results totaling over $1.5 billion, with              OIG investigators work with this team to investigate
76 audit reports issued and 538 convictions obtained. She                criminal SNAP and WIC violations. Team members include
reported that OIG’s Recovery Act-related work is nearing                 the Michigan State Police and Internal Revenue Service
completion, and because many of our recommendations                      (IRS) investigators. During this reporting period, we have
concerning Recovery Act funds also apply to regular USDA                 also worked with the Lansing Police Department’s Special
programs, OIG’s work will have lasting importance long                   Operations Division and the Holland Police Department in
after the Recovery Act funding is expended. The Inspector                Michigan. The FBI and U.S. Immigration and Customs
General also detailed OIG’s achievements in building a                   Enforcement personnel also helped during search warrant
leaner and more effective agency, enabling OIG to                        operations. Since 2007, our teamwork has resulted in
continue performing its oversight role despite functioning               132 arrests and 228 search warrants served. The U.S.
at its lowest level of authorized staffing since 1963.                   Attorney’s Offices for the Eastern and Western Districts of

Participation on Committees, Working Groups, and Task                    Michigan and the Michigan Attorney General’s Office are
Forces                                                                   pursuing multiple criminal prosecutions, with cases so far

Operation Talon.                                                         resulting in 115 guilty pleas. Sentences have included
                                                                         lengthy incarceration periods and $24.2 million in court-
OIG began Operation Talon in 1997 to catch fugitives,
                                                                         ordered fines and restitution. The U.S. Attorney’s Offices
many of them violent offenders, who are current or
                                                                         have initiated forfeitures totaling over $4.2 million. OIG
former SNAP recipients. Since its inception, Operation
                                                                         investigators have participated on the task force since
Talon has led to the arrests of thousands of fugitive felons.
                                                                         1996 and have conducted investigations involving welfare
During the first half of FY 2013, Talon operations were
                                                                         recipients, food stamp trafficking, mortgaged farm
conducted in 4 States, resulting in more than 50 arrests.
                                                                         equipment stolen from farmers, stolen property
OIG combined forces with Federal, State, and local law
                                                                         trafficking, illegal drugs, and dog fighting.
enforcement agencies to arrest fugitives for such offenses
as arson, assault, blackmail, drug charges, offenses against             Suspicious Activity Reports Review Teams.

family and children, robbery, sex offenses, and weapons                  OIG agents in a number of States participate on suspicious
violations.                                                              activity review teams, which are coordinated by the U.S.

Ohio Organized Crime Investigations Commission Task                      Department of Justice (USDOJ) through the U.S. Attorney’s
Force.                                                                   Offices. These review teams systematically review all

An OIG investigator is participating on the Ohio Organized               reports of suspicious activity that affect a specific

Crime Investigations Commission Task Force in Dayton.                    geographic jurisdiction, identify individuals who may be

The task force provides assistance to local law                          engaged in criminal activities, and coordinate and




16 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                                  Goal 2


disseminate leads to appropriate agencies for follow-up.                   Crime Association, OIG agents work with other area law
These teams generally include representatives from law                     enforcement agencies and organized retail crime
enforcement and various regulatory agencies, with the                      investigators from major retailers to identify and
U.S. Attorney’s Office and IRS-CI typically in lead roles.                 coordinate action against organized retail theft rings, as
OIG focuses specifically on reports of suspected criminal                  well as to identify retail items susceptible to theft by such
activities by business entities and individuals involved in                organized groups.
USDA programs, including SNAP and WIC violations, stolen
                                                                           The Guardians.
infant formula, and farm-related cases. Coordination
                                                                           USDA OIG is a member of this task force in Montana
among the respective agencies results in improved
                                                                           consisting of other Inspectors General (IG) and the FBI,
communication and efficient resource allocation.
                                                                           which was convened by the U.S. Attorney’s Office to
Mortgage Fraud Task Forces.
                                                                           coordinate and synchronize law enforcement efforts
OIG investigators participate in mortgage fraud task forces                among various Departments that have a significant
in California, Minnesota, and North Carolina, in addition to               financial commitment in Native American communities in
a national mortgage fraud working group that meets                         Montana. The participating agencies join forces; share
monthly in Washington, D.C. These task forces identify                     assets and responsibilities; promote citizen disclosure of
trends, share information, and coordinate investigations                   public corruption, fraud, and embezzlement in Federal
related to mortgage fraud. They are working to improve                     programs, contracts, and grants; and investigate and
efforts across the Federal executive branch, and with State                prosecute crimes against Montana’s Native American
and local partners, investigate and prosecute significant                  communities.
mortgage crimes, combat discrimination in the lending and
                                                                           Western Regional Inspectors General Councils and
financial markets, and recover proceeds for victims of                     Intelligence Working Groups.
financial crimes. The task forces are headed by
                                                                           OIG investigators work with various councils and groups to
representatives from U.S. Attorney’s Offices and the FBI.
                                                                           share information, discuss ongoing and potential work of
They are strategically placed in locations identified as high-
                                                                           mutual interest, and strengthen working relationships. In
threat areas for mortgage fraud. They include participants
                                                                           addition, Western Region OIG investigators organize and
from Federal program agencies and regulatory agencies
                                                                           participate in meetings to enhance coordination among
such as HUD, the IRS, the Social Security Administration,
                                                                           Federal, State, and local law enforcement agencies in the
local district attorney’s offices, and police departments.
                                                                           Pacific Northwest. IG councils meeting in other regions of
Organized Retail Theft Task Forces.                                        the country also include USDA OIG representatives.

As a member of the Retail Merchants Association of North                   Council of the Inspectors General on Integrity and
                                                                           Efficiency (CIGIE), Emergency Management Working
Carolina Retail Theft Initiative, OIG agents coordinate,
                                                                           Group Meetings.
plan, and meet regularly with various retail merchants in
                                                                           OIG participates in CIGIE’s Emergency Management
North Carolina to discuss a proactive investigative strategy
                                                                           Working Group Meetings. The Department of
to develop cases involving retail theft. This working group
                                                                           Homeland Security’s OIG, Emergency Management
coordinates investigations of convenience stores and retail
                                                                           Oversight Division, is spearheading these meetings so
outlets that may be involved in the theft and resale of
                                                                           that the IG community can discuss ways to identify
infant formula, electronics, and other retail items. As
                                                                           benefits fraud that may have occurred after Hurricane
members of the Northern California Organized Retail



                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 17
                                                               Goal 2


Sandy.                                                                  ONGOING REVIEWS FOR GOAL 2
                                                                        UNDER RECOVERY ACT FUNDS
Interagency Fraud and Risk Data Mining Group.
                                                                           Recovery Act impacts on SNAP—Phase 2 (FNS),
The OIG Data Analysis and Special Projects group                           Trade Adjustment Assistance for Farmers Program
participates in this working group to learn from experts in                 (FSA, FAS, National Institute of Food and Agriculture
the fields of data mining and risk analysis. This group                     (NIFA)), and
brings together investigators and auditors within the                      Review of water and waste project (RUS).
Federal community in order to share fraud detection and
prevention best practices, modeling tools and techniques,
and emerging issues that can be integrated with existing
data mining practices, tools, and techniques.

OIG agents participated in other task forces and working
groups related to benefits fraud, including the Northern
California Financial Fraud Investigators Association; the
Identity Theft Working Group in New Hampshire; Social
Services/Welfare Fraud Working Groups in Oregon and
Washington State; and SNAP fraud joint investigative
groups in Arizona and California, including a Secret Service
High Tech Crimes Task Force.


ONGOING REVIEWS FOR GOAL 2
    economic adjustment assistance to users of upland
     cotton (FSA),
    compliance activities (FSA),
    controls over prevented planting (RMA),
    controls for authorizing SNAP retailers (FNS),
    procurement controls (RD),
    National School Lunch and Breakfast Programs (FNS),
    States’ food costs for WIC (FNS),
    grant programs—duplication (Rural Business-
     Cooperative Service (RBS)),
    Environmental Quality Incentives Program (NRCS),
    Eligibility and Compliance Consideration for Section
     2501 Grants Awarded FYs 2010-2011 (OAO),
    SNAP error rate (FNS), and
    single family housing direct loan servicing and
     payment assistance recapture (Rural Housing Service
     (RHS)).




18 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                             Goal 3




Management Improvement
Initiatives
OIG Strategic Goal 3:
                                                                      seeking to destroy unique databases or criminals seeking
Support USDA in implementing its management
                                                                      economic gain.
improvement initiatives
                                                                                In the first half of FY 2013, we devoted
                                                                      59 percent of our total direct resources to Goal 3, with
OIG conducts audits and investigations that focus on such
                                                                      99 percent of these resources assigned to critical/high-
areas as improved financial management and
                                                                      impact work. A total of 89 percent of our audit
accountability, information technology (IT) security and
                                                                      recommendations under Goal 3 resulted in management
management, research, real property management,
                                                                      decision within 1 year, and 57 percent of our investigative
employee integrity, and the Government Performance and
                                                                      cases resulted in criminal, civil, or administrative action.
Results Act. The effectiveness and efficiency with which
                                                                      OIG issued 21 audit reports under Goal 3 during this
USDA manages its assets are critical. USDA depends on IT
                                                                      reporting period. OIG’s investigations under Goal 3
to efficiently and effectively deliver its programs and
                                                                      yielded 7 indictments, 9 convictions, and about $1.8
provide meaningful and reliable financial reporting. One
                                                                      million in monetary results during this reporting period.
of the more significant dangers USDA faces is a cyber-
attack on its IT infrastructure, whether by terrorists




 Management Challenges Addressed Under Goal 3
          Interagency Communication, Coordination, and Program Integration Need Improvement (also under Goals 1 and 4)
          Strong, Integrated, Internal Control Systems Still Needed (also under Goals 1, 2, and 4)
          IT Security Needs Continuing Improvement
          Proactive, Integrated Strategy is Necessary To Increase Agricultural Commerce and Trade
          Efforts to Identify, Report, and Reduce Improper Payments Need to Be Strengthened (also under Goal 2)



EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR                          recommendations have been continuously reported by
GOAL 3                                                                OIG since 2001 when we first detailed a material weakness
                                                                      in the design and effectiveness of USDA’s overall IT
USDA Needs to Resolve Longstanding Material                           security program. In order to mitigate the continuing
Weaknesses in its IT Security
                                                                      material weakness, we recommended that USDA and its
Although USDA has made improvements in its IT security                agencies work together to define and accomplish a
over the last decade, many longstanding weaknesses                    manageable number of critical objectives before
remain. In FYs 2009, 2010, and 2011, OIG made                         proceeding to the next set of priorities. When the
43 recommendations for improving the overall security of              Department received $66 million in increased funding in
USDA’s systems, but only 14 of those recommendations                  FYs 2010 and 2011, the Office of the Chief Information
have been implemented. Many of these remaining                        Officer (OCIO) used the money to fund 16 separate



                                                            USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 19
                                                              Goal 3


projects, some of which did not address the Department’s               Without AMS’ independent oversight, it may not be clear
most critical IT security concerns. We found that OCIO                 to beef producers, importers, and the public that beef
exceeded its proposed budget for projects or did not allot             checkoff funds are collected, dispersed, and expended in
sufficient funding to key security areas. As a result, we              accordance with legislation. Our audit also addressed
found that some projects were not completely                           concerns and specific allegations that beef checkoff funds
implemented. We also noted that projects were not                      may have been misused. We found no evidence to
sufficiently coordinated which, at times, resulted in                  support allegations that the board’s activities in those
projects with duplicate objectives.                                    areas did not comply with legislation, as well as AMS
                                                                       guidelines and policies. AMS concurred with our two
          Again this year, we continued to report a
                                                                       recommendations. (Audit Report 01099-0001-21,
material weakness in USDA’s IT security. The Department
                                                                       Agricultural Marketing Service Oversight of the Beef
has not: established a continuous program for monitoring
                                                                       Research and Promotion Board’s Activities)
IT security or contractor systems; ensured that agencies
securely configure their computers; mandated user multi-
factor authentication; consistently reported security                  FAS Should Refine its Performance Measures for
                                                                       Improving International Trade
incidents; implemented a risk-based framework for
handling security issues; adequately remediated                        The Government Performance and Results Act requires
weaknesses; implemented adequate contingency policies                  each executive agency to create a strategic plan with
and procedures; and adequately planned for security                    outcome-related goals and objectives, and the
costs. We are still waiting for a response to this report.             Government Accountability Office (GAO) recommends that
(Audit Report 50501-0003-12, FY 2012 Federal Information               agencies establish quantifiable performance measures in
Security Management Act Report)                                        order to gauge progress. Although FAS recently updated
                                                                       its Strategic Plan to include measurable goals and
AMS Should Improve its Management Reviews of the
Cattlemen’s Beef Promotion and Research Board                          objectives, these goals and objectives (which measure the
                                                                       dollar value of exports) do not present the whole picture
OIG determined that the relationships between the
                                                                       of how FAS’ actions are affecting the global market for
Cattlemen’s Beef Promotion and Research Board (beef
                                                                       American agricultural goods. FAS’ measures are not
board) and other industry-related organizations, including
                                                                       outcome-based and do not show how the United States is
the beef board’s primary contractor, the National
                                                                       performing in a given market compared to its competitors.
Cattlemen’s Beef Association, complied with legislation.
                                                                       OIG acknowledges that developing outcome-based
We also determined that AMS should strengthen its
                                                                       performance measures for FAS’ trade efforts is difficult,
procedures for providing oversight to the beef research
                                                                       but we maintain that a change in U.S. market share is an
and promotion program. We found that AMS has not
                                                                       outcome-based measure that would be of great use to
conducted periodic management reviews of the beef
                                                                       policymakers. FAS generally agreed with all
board, and the agency’s procedures for conducting these
                                                                       recommendations. (Audit Report 50601-0001-22,
reviews could be improved. For example, AMS had not
                                                                       Effectiveness of FAS’ Recent Efforts to Implement
identified weaknesses in the beef board’s internal controls
                                                                       Measurable Strategies Aligned to the Department’s Trade
over project implementation costs. Sensitivity to these
                                                                       Promotion and Policy Goals)
controls is important because the costs are incurred by the
national marketing body the beef board is required to use.




20 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                               Goal 3


NRCS Needs to Implement a Comprehensive Strategy for                    Federal agencies are required to use NIST’s recommended
Ensuring that its Conservation Programs Are Functioning
                                                                        controls to reduce risks to Federal systems, but we found
as Intended
                                                                        that OCIO did not implement some of NIST’s
OIG found that NRCS has not implemented a
                                                                        requirements. Although OCIO managers and staff were
comprehensive, integrated compliance strategy designed
                                                                        aware of these requirements, they did not incorporate the
to verify that conservation program funds totaling
                                                                        new requirements when they maintained the eAuth
$3.6 billion are serving their intended purpose. Over the
                                                                        system. Without incorporating the applicable NIST control
past decade, a number of OIG audits demonstrated that
                                                                        measures, the eAuth system could be at greater risk of
NRCS has longstanding problems with verifying the
                                                                        security breaches or service outages that negatively
eligibility of participants, their compliance with
                                                                        impact access to over 400 USDA systems. Since OCIO is
conservation agreements, and how easements are valued.
                                                                        currently modernizing the eAuth system, the agency
OIG maintains that NRCS must strengthen its efforts to
                                                                        should address all NIST requirements as part of the
improve program compliance by, for example,
                                                                        system’s upgrade. OCIO agreed with our
reorganizing so that one person or entity at NRCS has the
                                                                        recommendations. (Audit Report 88501-0001-12, Review
responsibility and authority to ensure that compliance and
                                                                        of Selected Controls of the eAuthentication System)
oversight activities are effective. We also found that NRCS
                                                                        USDA Must Comply With the Improper Payments
never performed a risk assessment of its overall program
                                                                        Elimination and Recovery Act of 2010
operations. When NRCS performed compliance reviews,
                                                                        We reviewed USDA’s FY 2012 Agency Financial Report and
those reviews did not focus on the specific program
                                                                        accompanying information to determine whether the
vulnerabilities identified by prior OIG reports. Without an
                                                                        agency was compliant with the Improper Payments
improved compliance effort, NRCS cannot ensure the
                                                                        Elimination and Recovery Act of 2002 (IPERA), as amended
integrity of its $3.6 billion in program expenditures, nor
                                                                        in 2010. OIG determined that USDA did not comply with
can it ensure that its resources are used efficiently and
                                                                        IPERA for a second consecutive year. Although USDA
effectively to reduce the risk of fraud, waste, and abuse.
                                                                        made progress to improve its processes to substantially
We recommended that NRCS perform an overall risk
                                                                        comply with IPERA, the Department was not compliant
assessment of program operations and implement an
                                                                        with three of the seven requirements. Specifically, USDA
integrated compliance strategy. NRCS agreed with our
                                                                        and its component agencies did not always report
recommendations. (Audit Report 10601-0001-22, NRCS’
                                                                        sufficient estimates for high-risk programs, report error
Oversight and Compliance Activities)
                                                                        rates below specific thresholds, and meet annual
USDA Needs to Bring its eAuthentication (eAuth) System
                                                                        reduction targets. These noncompliances illustrate the
into Full Compliance with National Institute of Standards
and Technology (NIST) Standards                                         risks of improper payments affecting taxpayers, as USDA
                                                                        could have avoided approximately $74 million in improper
USDA uses eAuthentication (eAuth) to electronically
                                                                        payments by meeting reduction targets. OIG is required to
authenticate access to its systems so that employees can
                                                                        report to Congress that USDA did not comply with IPERA.
access those systems securely. While eAuth generally
                                                                        For those programs that did not comply with IPERA for
operates effectively, efficiently, and in accordance with
                                                                        two consecutive fiscal years, USDA must consult with OMB
guidance, we found that USDA could improve the eAuth
                                                                        to discuss further actions. The Office of the Chief Financial
system’s internal controls to make critical USDA program
                                                                        Officer (OCFO) provided a response and agreed with our
and financial information less vulnerable to compromise.
                                                                        recommendations; the other USDA agencies are in the



                                                              USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 21
                                                             Goal 3


process of responding to the recommendations. (Audit                      conducted the FY 2012 audit and identified significant
Report 50024-0004-11, U.S. Department of Agriculture                      deficiencies in internal controls over information
Improper Payments Elimination and Recovery Act of 2010                    technology and issues related to the agency’s
Compliance Review for Fiscal Year 2012)                                   property, plant, and equipment. They did not
                                                                          consider these deficiencies to be material
USDA FY 2012/2011 Consolidated Financial Statements
                                                                          weaknesses. The auditors reported that FS
USDA’s FY 2012/2011 consolidated financial statements
                                                                          substantially complied with FFMIA, and did not
received an unqualified opinion. Our consideration of the
                                                                          disclose any instances of noncompliance with laws
internal control over financial reporting identified three
                                                                          and regulations exclusive of FFMIA. (Audit Report
significant deficiencies. Specifically, we identified
                                                                          08401-0002-11, Forest Service’s Financial Statements
weaknesses in USDA’s overall financial management,
                                                                          for Fiscal Years 2012 and 2011)
information technology security and controls, and controls
                                                                         CCC—Unqualified Opinion on FY 2012/2011 Financial
over financial reporting. We determined that the first two
                                                                          Statements. An independent certified public
significant deficiencies were material weaknesses. Our
                                                                          accounting firm audited CCC’s financial statements
consideration of compliance with laws and regulations
                                                                          for FYs 2012 and 2011 and issued an unqualified
disclosed substantial noncompliance relating to the
                                                                          opinion. The report identified two significant
Federal Financial Management Improvement Act of 1996
                                                                          deficiencies, including CCC’s funds control and
(FFMIA). (Audit Report 50401-0003-11, Department of
                                                                          controls over child agency financial reporting. The
Agriculture’s Consolidated Financial Statements for Fiscal
                                                                          auditors considered the first significant deficiency to
Years 2012 and 2011)
                                                                          be a material weakness. Additionally, the auditors’
     In addition to auditing USDA’s consolidated financial
                                                                          tests of compliance with laws and regulations
statements, OIG either performed or oversaw contractors
                                                                          disclosed noncompliance with FFMIA for the United
as they performed audits of six USDA agencies’ financial
                                                                          States Standard General Ledger at the transaction
statements:
                                                                          level. (Audit Report 06401-0002-11, Commodity
    RD—Unqualified Opinion on FY 2012/2011 Financial                     Credit Corporation’s Financial Statements for Fiscal
     Statements. RD received an unqualified opinion on                    Years 2012 and 2011)
     its financial statements for FYs 2012 and 2011. Our
                                                                         NRCS—Disclaimer of Opinion on FY 2012 Financial
     consideration of internal controls over financial
                                                                          Statements. An independent certified public
     reporting identified no significant deficiencies. Our
                                                                          accounting firm audited NRCS’ financial statements
     consideration of compliance with laws and
                                                                          for FY 2012. Although the report noted
     regulations did not disclose any instances of
                                                                          improvements in information technology and
     noncompliance. (Audit Report 85401-0002-11, Rural
                                                                          purchase and fleet cards, the auditors issued the
     Development’s Financial Statements for Fiscal Years
                                                                          agency a disclaimer of opinion. The auditors’ report
     2012 and 2011)
                                                                          identified weaknesses in NRCS’ general accounting
    FS—Unqualified Opinion on FY 2012/2011 Financial                     operations; financial reporting; property, plant, and
     Statements. FS received an unqualified opinion on its                equipment; accrued expenses; reimbursable
     financial statements for FYs 2012 and 2011. An                       agreements; information technology; and
     independent certified public accounting firm                         undelivered orders and new obligations. The auditing




22 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                           Goal 3


    firm considered the first five findings as material                  Report 27401-0002-21, Food and Nutrition Service’s
    weaknesses and the last two findings as significant                  Financial Statements for Fiscal Years 2012 and 2011)
    deficiencies. Additionally, the auditors tested for
    compliance with laws and regulations and disclosed              ARS Employee Pleads Guilty to Scheme to Receive
                                                                    Unearned Paid Time Off Donated by Other Employees
    instances of noncompliance with FFMIA. (Audit
    Report 10401-0002-11, Natural Resources                         In December 2012, a former ARS employee was sentenced
    Conservation Service Financial Statements for                   to serve 36 months on probation, perform 60 hours of
    FY 2012)                                                        community service, repay $9,027 in restitution, and write
                                                                    a letter of apology to each of her 19 victims. In July 2012,
   Federal Crop Insurance Corporation (FCIC)/RMA—
                                                                    the employee pled guilty to scheming to receive unearned
    Unqualified Opinion on FY 2012/2011 Financial
                                                                    paid time off donated by other employees. The employee,
    Statements. An independent certified public
                                                                    who had worked in human resources and coordinated the
    accounting firm audited FCIC/RMA’s consolidated
                                                                    leave donor program for ARS, admitted that she created
    financial statements for FYs 2012 and 2011 and
                                                                    false doctors’ notes to obtain donated paid leave, which
    issued an unqualified opinion on the agency’s
                                                                    resulted in her receiving leave to which she was not
    financial statements. The firm found no weaknesses
                                                                    entitled. As a condition of the plea agreement, the
    related to internal controls or noncompliance with
                                                                    employee resigned from Federal service.
    laws and regulations. (Audit Report 05401-0002-11,
    Federal Crop Insurance Corporation/Risk                         RD Employee Sentenced to Prison for Wire Fraud
    Management Agency’s Financial Statements for Fiscal
                                                                    In November 2012, an area director with RD in Alabama
    Years 2012 and 2011)
                                                                    pled guilty to committing wire fraud by depositing
   FNS—Unqualified Opinion on FY 2012/2011                         $6.2 million in checks issued by 10 water authorities and
    Financial Statements. OIG audited FNS’ financial                1 electric authority into a bank account for which he had
    statements for FYs 2012 and 2011 and issued an                  the sole signatory authority. A joint investigation with the
    unqualified opinion on the agency’s financial                   FBI disclosed that the employee then transferred those
    statements. Although our consideration of                       funds to his personal accounts. In March 2013, the
    compliance with laws and regulations disclosed one              employee was sentenced in U.S. District Court, Middle
    instance of noncompliance with the Improper                     District of Alabama, to 60 months in prison, followed by
    Payments Information Act of 2002, regarding the                 36 months of probation, with restitution to be determined
    design of program internal controls related to                  within 90 days. The employee was separated from Federal
    reporting improper payments, we reported no                     employment in January 2013.
    weaknesses related to internal controls. (Audit




RECOVERY ACT REVIEWS                                                the Recovery Act for SNAP. However, we found these
FNS SNAP Performance Measures Were Not Well                         measures were not designed to effectively evaluate how
Designed for the Recovery Act
                                                                    the additional funding achieved the Recovery Act goals of
FNS, with USDA and OMB approval, implemented four                   assisting those most impacted by the recession, stabilizing
performance measures to evaluate its implementation of              State government nutrition program budgets for essential




                                                          USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 23
                                                             Goal 3


services, and stimulating the economy. FNS officials                  However, we identified a chronic invoice payment issue
explained that they selected the four performance                     and Recovery Act reporting issues. Specifically, we found
measures because OMB urged agencies to use measures                   that Departmental Management did not pay 16 of
they were already using for regular operations. FNS                   17 invoices in a timely manner. Because Departmental
believed the Recovery Act goals naturally aligned with its            Management did not effectively ensure that staff with
pre-existing program goals for SNAP. Specifically, we                 sufficient warrant authority was available to approve
found three of the four measures did not measure                      invoices if, for instance, personnel assigned to the contract
outcomes that assessed how well the additional funds                  were on leave or transferred, USDA incurred late payment
achieved the Recovery Act goals. Instead, three of these              interest penalties of over $18,000. We also found that
performance measures reflected outputs, such as the                   information reported on Recovery.gov for the project
dollar amount of benefits issued and administrative costs             contained inaccuracies. As a result of a previous audit,
expended. The one outcome performance measure,                        Departmental Management issued procedures for
which deals with food insecurity, did not directly measure            Recovery Act contracting. However, because the
the impact of Recovery Act funds because it did not                   procedures do not clarify reporting for projects with
measure how well SNAP assisted those most impacted by                 multiple funding sources, staff reported the project’s
the recession. As a result, FNS performance measures did              funding on Recovery.gov inaccurately. Departmental
not assess or report on the use of the approximately                  Management generally agreed with our
$45.5 billion in additional SNAP assistance during the                recommendations. (Audit Report 50703-0001-12,
economic downturn. Because of the complexity involved                 Procurement Oversight Audit of South Building
in developing outcome measures, FS agreed to the                      Modernization Project)
report’s recommendation. (Audit Report 27703-0002-22,                 RUS Could Have Better Focused Broadband Funding on
Recovery Act Performance Measures for the Supplemental                Rural Areas Without Access to Broadband
Nutrition Assistance Program)                                         OIG reviewed how RUS awarded approximately
                                                                      $3.5 billion in Recovery Act funding to provide sufficient
                                                                      access to high-speed broadband service to facilitate rural
Departmental Management Should Have Paid Invoices                     economic development. RUS complied with the provisions
for Building Modernization More Timely
                                                                      of the Recovery Act in how it implemented the program
The Recovery Act provided USDA’s Departmental                         and OIG did not question the eligibility of any RUS-funded
Management with approximately $17 million to modernize                BIP projects in our sample. However, we did identify
a wing of USDA’s South Building in Washington, D.C. To                several issues with how RUS implemented BIP, including
ensure that the transparency and accountability                       that RUS funded BIP projects that sometimes overlapped
requirements of the Recovery Act are met, OIG contracted              the service areas of preexisting RUS-subsidized broadband
with an independent certified public accounting firm to               providers and approved 10 projects, totaling over
assist in ensuring that Departmental Management                       $91 million, even though the proposed projects would not
performed Recovery Act procurement activities in                      be completed within the 3-year timeframe RUS
accordance with Federal Acquisition Regulations, OMB                  established and published. We also found that the agency
guidance, and Recovery Act requirements. We found                     could have implemented the program so that it would
Departmental Management’s contracting staff were                      have focused more exclusively on rural residents who did
experienced and qualified to monitor the contract.                    not already have access to broadband. We recommended



24 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                               Goal 3


that, for future programs, RUS avoid funding broadband                  RBS Needs to More Carefully Review Rural Business
                                                                        Enterprise Grant (RBEG) Projects Before Disbursing Funds
projects in areas that are already served by RUS-subsidized
providers, publish and follow clearly defined project                   As part of the Recovery Act, Congress appropriated
completion expectations, and focus broadband funding on                 $20 million for RBEG to provide funding to facilitate the
rural areas that do not have access to this technology.                 development of small and emerging rural businesses. By
RUS concurred with three of the seven recommendations.                  October 2009, RD had obligated funds for 145 RBEG
(Audit Report 09703-0001-32, American Recovery and                      projects, totaling over $15.3 million in Recovery Act
Reinvestment Act of 2009—Broadband Initiatives                          funding. As the second stage of a multi-phase review of
Program—Pre-Approval Controls)                                          how RD used these funds, OIG examined whether RBS had
                                                                        appropriate oversight over project compliance. We found
RD Should Improve its Performance Measures for the
Single-Family Housing Loan Programs to Better Reflect                   that RBS was not sufficiently reviewing projects for
Program Goals
                                                                        compliance. Of the 47 grants we reviewed, we identified
As the last stage of a multi-phase review of the Recovery               20 where RBS personnel did not obtain or review required
Act’s funding for RD’s Single-Family Housing (SFH) loan                 forms, 3 of which either had prior unspent grant funds or
programs, OIG examined whether the agency met                           duplicated prior RBEG projects. Based on our overall
performance goals meant to measure the program’s                        sample results, we estimate that 70 grants (49 percent)
overall effectiveness. We found that RD needs to establish              may have similar issues, with a projected total value of
outcome-oriented performance measures that it can use                   $4.6 million. These problems occurred because RBS
to gauge the effectiveness of SFH programs. While RD’s                  employees were not trained adequately on RBEG-specific
primary strategic goal is to assist rural communities in                information. We recommended that RBS provide
repopulating and becoming self-sustaining and                           personnel in charge of overseeing RBEG projects with
economically thriving, its Recovery Act Implementation                  formal, comprehensive training, and recover RBEG
Plan originally established one performance measure for                 Recovery Act funds for projects that lack sufficient
both SFH loan programs: to increase the number of                       support, were outside the scope of work, or were awarded
homeowners. OIG acknowledges that RD met this output-                   to grant recipients that did not provide required matching
oriented performance measure by obligating about                        funds from non-Federal sources. RBS generally agreed
11,000 direct loans and guaranteeing over 81,000 loans;                 with our recommendations. (Audit Report 34703-0001-31,
however, one measure alone does not provide substantive                 Business Enterprise Grants Recovery Act Controls Field
information on outcomes, which is needed to establish                   Confirmations)
whether program goals are being achieved or if the
                                                                        OCFO Needs to Improve its Process for Detecting and
objectives of the Recovery Act are being carried out. Even              Correcting Errors in Recovery Act Reporting
though Recovery Act funding has ceased, we believe that
                                                                        As part of the Recovery Act, Congress provided USDA with
RD should establish additional performance measures for
                                                                        $28 billion, directing that the Department report how
both SFH loan programs funded with regular
                                                                        these funds were used clearly, accurately, and in a timely
appropriations. RD agreed with our recommendations.
                                                                        manner. To ensure transparency, agencies are required to
(Audit Report 04703-0001-31, Rural Development’s Single
                                                                        generate reports that include almost 100 data elements,
Family Housing Direct and Guaranteed Loans-Recovery
                                                                        such as the type, date, and amount of award; project
Act—Effectiveness Review)
                                                                        description; and the number of jobs created or retained by
                                                                        each project. In May 2011, OIG reviewed the 4,974 USDA



                                                              USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 25
                                                              Goal 3


Recovery Act awards reported on FederalReporting.gov, as               USDA Federal Reporting.gov March 2011 Data Quality
of March 31, 2011, to ensure that the data were accurate               Review)
and complete. We found 1,202 errors in the information
                                                                       USDA Needs to Ensure the Accuracy of Reports on Jobs
reported by recipients, including 368 misreported award                Created or Retained through Recovery Act Spending
numbers and amounts and 834 incorrect award dates. We
                                                                       As part of the Recovery Act, USDA agencies are to review
also found five awards which were not included on USDA’s
                                                                       the number of jobs created or retained, as reported on
comprehensive list of awards. These errors occurred
                                                                       FederalReporting.gov. OIG determined, however, that
because the agencies responsible for identifying errors
                                                                       USDA agencies were not performing adequate reviews of
utilize a tool, developed by OCFO, which does not capture
                                                                       these figures, and that agencies need to develop
all potential errors defined by OMB. Additionally, when
                                                                       additional data checks to improve their reviews. Of
agencies successfully identified errors, they generally did
                                                                       99 USDA Recovery Act awards—which account for
not take actions beyond the minimum requirements,
                                                                       approximately 375 of the 1,200 Recovery Act jobs
which did not always result in the recipient correcting the
                                                                       reported for the awards in our sample—we found errors
error. USDA agency personnel stated that they did not
                                                                       on 33. For instance, we identified job numbers that were
consider the errors significant enough to impose penalties
                                                                       inflated because award recipients reported cumulative job
on the recipient. Without reliable data, USDA and others
                                                                       numbers instead of the number of jobs created or saved
relying on this information cannot monitor the progress of
                                                                       during the quarter being reported. In other instances, job
awards that are reported or accurately determine the
                                                                       numbers were underreported. USDA agencies did not
outcome of the Recovery Act funding.
                                                                       identify and remedy the significant errors that award
          We recommended that OCFO strengthen its data                 recipients made because the analytical tools the agencies
quality tool, work with agencies to develop consistent                 were using were inadequate to verify the numbers
internal controls to ensure that all reportable awards are             recipients reported. Without accurate data about the
included on both the comprehensive list and                            number of jobs retained or created through the use of
FederalReporting.gov, and update OCFO guidance to                      Recovery Act funds, it is difficult to measure how effective
include progressive steps that USDA agencies can take to               the Department was in accomplishing a main Recovery Act
ensure errors are corrected on FederalReporting.gov.                   objective, which was to create and retain jobs. OCFO
OCFO agreed with our recommendations and                               generally agreed with our recommendation. (Audit Report
implemented corrective actions. (Audit Report 50703-                   50703-0002-13, Data Quality Review of American
0001-13, American Recovery and Reinvestment Act—                       Recovery and Reinvestment Act Jobs Reported for USDA
                                                                       Programs)




26 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                               Goal 3


GOVERNMENTWIDE ACTIVITIES—GOAL 3                                        the reader to particular instances in which OIG is the
                                                                        primary law enforcement contact and ensuring proper
Review of Legislation, Regulations, Directives, and
Memoranda                                                               coordination among agencies.

Review of OMB Draft Guidance on Audit Opinions of                       Participation on Committees, Working Groups, and Task
Internal Control Over Improper Payments.                                Forces

As required by IPERA, on February 11, 2013, OMB                         CIGIE Investigations Committee.
provided draft guidance to agencies and IG offices
                                                                        The Assistant Inspector General for Investigations
regarding when agencies should be required to obtain an
                                                                        participates on CIGIE’s Investigations Committee, and its
audit opinion on internal control over programs
                                                                        Assistant Inspectors General for Investigation
susceptible to significant improper payments. On
                                                                        Subcommittee, which advise the IG community on issues
February 13, 2013, OIG expressed concerns regarding
                                                                        involving criminal investigations, criminal investigations
resource constraints for IGs, and the ambiguity of the
                                                                        personnel, and establishing criminal investigative
prescribed steps and the analysis an auditor would be
                                                                        guidelines.
required to perform to opine on internal controls. On
                                                                        Whistleblower Ombudsman Working Group.
March 1, 2013, OMB and members of the CIGIE
community further discussed concerns with the draft                     Pursuant to the recently enacted Whistleblower
guidance. OMB agreed to consider the CIGIE community’s                  Protection Enhancement Act of 2012, OIG designated a
comments prior to finalizing its guidance.                              Whistleblower Ombudsman (ombuds), whose role is to
                                                                        educate Department employees about prohibitions
The Government Accountability Office Improvement Act.
                                                                        against retaliation for protected disclosures of fraud,
OIG reviewed the proposed bill, which would enhance
                                                                        waste, and abuse, and rights and remedies if retaliation
GAO’s authorities to permit it to make and retain copies of
                                                                        does occur. OIG’s ombuds is a member of a newly
an agency record, to obtain records through a civil action
                                                                        established OIG Whistleblower Ombudsman Working
against an agency, and to administer oaths to agency
                                                                        Group. The first meeting was held in March 2013 and
witnesses in certain kinds of matters. We recommended
                                                                        included more than 25 ombuds from various Federal IGs.
that the bill include a provision requiring GAO, in the
                                                                        The focus of the discussion was on the role and
exercise of these authorities, to coordinate with the
                                                                        responsibilities of the ombuds, implementation activities,
appropriate IGs in order to avoid any duplication of work.
                                                                        coordination with the Office of Special Counsel, and the
Departmental Regulation—Cyber Security Incident                         requisite notifications regarding non-disclosure
Management.
                                                                        agreements set forth in the new statute.
OIG reviewed the draft departmental regulation on Cyber
                                                                        Financial Fraud Enforcement Task Force (formerly National
Security Incident Management, which provides that all                   Procurement Fraud Task Force).
information security incidents potentially related to
                                                                        OIG is a member of this task force, formed by USDOJ in
criminal activity must be referred to OIG “and/or the
                                                                        October 2006 as a partnership among Federal agencies
appropriate law enforcement agency as soon as an
                                                                        charged with investigating and prosecuting Government
incident is suspected of or identified as being criminal in
                                                                        contracting and grant illegalities. The purpose of the task
nature.” OIG recommended inserting into that provision a
                                                                        force has been expanded to include a wider variety of
reference to Departmental Regulation 1700-2 (OIG
                                                                        financial crimes, from securities fraud to identity theft.
Organization and Procedures) for the purposes of directing



                                                              USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 27
                                                                Goal 3


The task force is working to better allocate resources,
                                                                         Reviews Coordinated With Other Government Entities
improve coordination in financial fraud cases, and
accelerate their investigation and prosecution. OIG                      Special Inspector General for Afghanistan Reconstruction
                                                                         Coordination Efforts.
investigation field offices in all OIG regions participate in
procurement fraud task forces.                                           The Special Inspector General for Afghanistan
                                                                         Reconstruction (SIGAR) initiated a financial audit of a non-
The FBI’s Public Corruption Working Group/Task Force.
                                                                         governmental organization (NGO) that received USDA
OIG agents are members of these groups in Mississippi
                                                                         funds for reconstruction activities in Afghanistan. To avoid
and Utah, which are focused on combating corruption
                                                                         potential duplication of efforts, OIG auditors coordinated
involving Government officials and employees.
                                                                         with SIGAR to discuss OIG’s current work with the same
Intra-Departmental Coordinating Committee on                             NGO. Throughout the course of fieldwork, OIG auditors
International Affairs.
                                                                         continue to coordinate with SIGAR to discuss developing
OIG auditors participate in this committee’s meetings.                   issues and potential findings.
Headed by FAS, the purpose of the committee (which
                                                                         Federal Audit Executive Council.
includes most USDA agencies) is to coordinate
                                                                         OIG participates in the Federal Audit Executive Council,
international activities. Some of the committee’s issues
                                                                         whose main purpose is to discuss and coordinate issues
include USDA’s role in implementing the President’s
                                                                         affecting the Federal audit community with special
national export initiative; country strategy statements;
                                                                         emphasis on audit policy and operations of common
reconstruction and capacity building activities in Pakistan
                                                                         interest to members. The council has six standing
and Afghanistan; and international food security and
                                                                         committees: Audit, Financial Statements, Information
assistance.
                                                                         Technology, Professional Development, Contracting, and
USDA Credit Reform Workgroup.
                                                                         the Annual Conference. OIG’s Assistant Inspector General
The Financial Audit Operations Division of OIG participates              for Audit serves as the Co-Chair of the Audit Committee.
in this workgroup, which is composed of representatives                  The Audit Committee is currently working on developing
from all USDA credit agencies. The purpose of this                       an approach to identifying and compiling internal and
workgroup is to address accounting, auditing, budgeting,                 external metrics and performance measures used in the
and reporting issues encountered by agencies subject to                  Federal audit community for evaluating audit quality and
the Federal Credit Reform Act of 1990.                                   timeliness. They also plan to compile factors and best
                                                                         practices used in annual audit planning.
Financial Statement Audit Network (FSAN) Workgroup.
                                                                         Reviews Performed for Other Government Entities
OIG auditors are members of the FSAN workgroup, whose
main purpose is to share ideas, knowledge, and experience                External Peer Review for USDOJ, Office of Inspector
                                                                         General.
concerning Federal financial statement audits. In
conjunction with FSAN, OIG annually hosts the CIGIE/GAO                  We conducted a peer review of the system of quality
Financial Statement Audit Conference.                                    control for this audit organization for FY 2012. Our
                                                                         responsibility was to express an opinion on the design of
                                                                         the system and USDOJ OIG’s compliance with it. Our
                                                                         review was conducted in accordance with Government
                                                                         Auditing Standards and guidelines established by CIGIE.



28 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                             Goal 3


We tested 12 of the 88 audit and attestation reports as                  in re black farmers’ discrimination litigation (USDA),
well as the internal quality control reviews performed by                overlap and duplication in FNS’ nutrition programs
                                                                          (FNS),
USDOJ OIG. In our opinion, the system of quality control
                                                                         review of USDA’s bank purchase card data (USDA),
was suitably designed and complied with. Therefore,                      review of the Procurement Operations Division
USDOJ OIG received a peer review rating of pass.                          (OCIO),
                                                                         management and security over USDA’s universal
ONGOING REVIEWS FOR GOAL 3                                                telecommunications network (OCIO),
                                                                         Section 632(a) transfer of funds for Afghanistan from
   FY 2012 Executive Order 13520, Reducing Improper
                                                                          U.S. Agency for International Development (USAID) to
    Payments, High Dollar Overpayment Report Review
                                                                          USDA (FAS, NIFA),
    (OCFO),
                                                                         review of an NGO in Afghanistan (FAS) private
   review of the Department’s travel card data (OCFO),
                                                                          voluntary organization grant fund accountability
   FY 2013 National Finance Center general controls
                                                                          (FAS),
    (OCFO),
                                                                         security review of lockup procedures (National
   review of USDA contractor databases (Office of
                                                                          Agricultural Statistics Service), and
    Procurement and Property Management),
                                                                         USDA controls over Economy Act transfers and
   USDA Strikeforce Initiative (OAO),
                                                                          Greenbook Program charges (OCFO).
   classification management (Office of Homeland
    Security and Emergency Coordination),
   USDA and its agencies’ financial statements for                   ONGOING REVIEWS FOR GOAL 3
    FY 2013 (OCFO),                                                   UNDER RECOVERY ACT FUNDS
   USDA conferences (OCFO),
                                                                         ARS’ contract closeout process (ARS), and
   review of USDA contractor payments (OCFO),
                                                                         BIP—post-approval controls (RUS).
   review of FSA’s accounting for FY 2012—improper
    payment reporting (FSA),




                                                            USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 29
                                                               Goal 4




Stewardship Over Natural Resources
OIG Strategic Goal 4:                                                   USDA also provides scientific and technical knowledge for
                                                                        enhancing and protecting the economic productivity and
Increase the efficiency and effectiveness with which                    environmental quality of the estimated 1.5 billion acres of
USDA manages and exercises stewardship over                             forests and associated rangelands in the United States.
natural resources
                                                                                  In the first half of FY 2013, we devoted 4 percent

OIG’s audits and investigations focus on USDA’s                         of our total direct resources to Goal 4, with 100 percent of

management and stewardship of natural resources,                        these resources assigned to critical/high-impact work. A

including soil, water, and recreational settings. Our work              total of 100 percent of our audit recommendations under

in this area is vital because USDA is entrusted with                    Goal 4 resulted in management decision within 1 year. No

hundreds of billions of dollars in fixed public assets, such            investigative cases resulted in criminal, civil, or

as 193 million acres of national forests and grasslands.                administrative action. OIG issued three audit reports
                                                                        under Goal 4 during this reporting period.

 Management Challenges Addressed Under Goal 4

           Interagency Communication, Coordination, and Program Integration Need Improvement (also under Goals 1 and 3)
           Forest Service Management and Community Action Needed to Improve Forest Health and Reduce Firefighting
            Costs
           Strong, Integrated, Internal Control Systems Still Needed (also under Goals 1, 2, and 3)
           Planning Needed for Succession Planning and Reduced Staffing



EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR
                                                                        they were not always resolved. The two agencies also
GOAL 4
                                                                        need to better track information, such as the number of
FS Needs to Better Coordinate with BLM to Approve
                                                                        days for nominated parcels to be processed, as we found
Applications to Drill for Oil and Gas on National Forest
System Land                                                             that deadlines were often missed. We also found that FS
                                                                        could not validate whether all well sites were being
Rising energy prices have led to increased interest in the
                                                                        inspected annually, as required. Permitting oil and gas
exploration and development of domestic oil and gas
                                                                        drilling on NFS lands does pose an environmental risk, but
resources, some of which are found beneath public lands
                                                                        FS does not require operators to submit a spill plan that
within national forests. When oil and gas companies apply
                                                                        would ensure that operators are prepared to quickly
to drill on National Forest System (NFS) land, FS works
                                                                        respond to any spills. Finally, OIG noted that FS
with BLM in the Department of the Interior to regulate
                                                                        established performance measures to assess the work
their operations. OIG found that the two agencies need to
                                                                        done in the program, but those measures did not clearly
improve how they work together so that oil and gas lease
                                                                        record the outcomes of key program activities. As a result,
nominations and operations are approved expeditiously.
                                                                        FS officials were not receiving the data needed to make
Most of FS’ communication with BLM has been informal—
                                                                        appropriate program decisions and were unable to
when problems obstructing cooperation occurred,
                                                                        determine which program activities were not performed
                                                                        timely. FS generally agreed with all of our
                                                                        recommendations. (Audit Report 08601-0001-21,



30 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                                Goal 4


Management of Oil and Gas Resources on National Forest
System Land)



RECOVERY ACT
                                                                         maximizing job creation and retention in the most cost-
FS Needs to Ensure that Recovery Act Reporting is                        effective manner possible. OIG recommended that FS
Accurate
                                                                         improve training, clarify staff responsibilities, and enhance
FS implemented performance measures that generally met                   its monitoring efforts. We also recommended FS recover
the goals of the Recovery Act; however, we found FS field                $27.5 million in unallowable costs charged to the grants,
staff did not timely or accurately report the agency’s                   follow up on an additional $33.6 million, and halt
Recovery Act accomplishments by the final cutoff date for                reimbursements to entities with persisting control
six of the seven key performance measures selected for                   weaknesses. We reached management decision on 48 of
our review. This occurred because some field staff had                   the report’s 62 recommendations. We will work with the
competing priorities that superseded entering the                        agency to resolve the outstanding recommendations.
accomplishment data into the tracking systems. Some                      (Audit Report 08703-0005-SF, Recovery Act—Forest
field staff also made inadvertent data entry errors. As a                Service Hazardous Fuels Reduction and Ecosystem
result, FS misreported its accomplishments for 68 of                     Restoration Projects on Non-Federal Lands)
122 contracts and agreements we reviewed and,
therefore, did not fully meet the Recovery Act’s
transparency objective. FS generally agreed and
reinforced with its staff the importance of timely data
entry. (Audit Report 08703-0001-41, Forest Service
Performance Measures for Recovery Act Projects

FS Should Strengthen Controls Over Wildland Fire
Management (WFM) Activities on Non-Federal Land

FS allocated Recovery Act grants for WFM activities, such
as hazardous fuels reduction, forest health, and ecosystem
improvements. Overall, we found that FS lacked the
necessary controls to ensure that the grant funds were
both properly accounted for and used for their intended
purpose—not just for Recovery Act grants, but for the
entire grant program. We also found that FS did not
enhance its existing controls, despite the Recovery Act’s
requirements for greater transparency and accountability.
As a result, the grant recipients we reviewed charged a
total of $92 million in unallowable and questionable costs
to both Recovery Act and non-Recovery Act grants. We
also found that FS staff did not take the necessary steps to
ensure that it met the Recovery Act’s overall objective of



                                                               USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 31
                                                             Goal 4




GOVERNMENTWIDE ACTIVITIES—GOAL 4

Participation on Committees, Working Groups, and Task Forces

Environmental Crimes Working Groups.

OIG agents continue to participate in working groups convened by U.S. Attorney’s Offices in the District of New Hampshire, the
Eastern District of North Carolina, and the Western District of Washington State, to improve cooperation and coordination
among Federal, State, and local law enforcement agencies enforcing environmental laws, as well as to exchange information
and provide prosecutorial support and training opportunities.

Minnesota Pest Risk Committee.

OIG participates in this committee, which is composed of Federal, State, and local representatives who focus on efforts used in
Minnesota to intercept and control invasive plants, insects, and animals that are detrimental to the State.

ONGOING REVIEWS FOR GOAL 4

   FS’ firefighting cost-share agreements with non-Federal entities (FS).




32 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                     Impact of the OIG



Gauging the Impact of OIG

  Measuring Progress Against the OIG                                     Impact of OIG Audit and Investigative Work on
                                                                         Department Programs
  Strategic Plan
                                                                         A second way we gauge our impact is by
  The first way we gauged our impact was by                              tracking the outcomes of our audits and
  measuring the extent to which our work focused                         investigations. Many of these measures are
  on the key issues under our strategic goals.                           codified in the IG Act of 1978, as amended. The
  These are:                                                             following pages present a statistical overview of
  1.   Strengthen USDA’s ability to implement safety                     the OIG’s accomplishments this period.
       and security measures to protect the public                       For audits we show:
                                                                            reports issued,
       health as well as agricultural and Departmental
       resources.                                                           management decisions made (number of reports
                                                                             and recommendations),
  2.   Reduce program vulnerabilities and strengthen
       program integrity in the delivery of benefits to                     total dollar impact of management-decision
       individuals.                                                          reports (questioned costs and funds to be put to
                                                                             better use),
  3.   Support USDA in implementing its management
       improvement initiatives.                                             program improvement recommendations, and

  4.   Increase the efficiency and effectiveness with                       audits without management decision.
       which USDA manages and exercises stewardship
                                                                         For investigations we show:
       over natural resources.                                              indictments,

                                                                            convictions,

                                                                            arrests,

                                                                            total dollar impact (recoveries, restitutions,
                                                                             fines, asset forfeiture),

                                                                            administrative sanctions, and

                                                                            OIG Hotline complaints.




                                                          USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 33
                                                               Impact of the OIG



PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
PERFORMANCE MEASURES                                                                                   FY 2013      FY 2013
                                                                                       FY 2012
                                                                                                       TARGET       1st Half
                                                                                       ACTUAL
                                                                                                                    ACTUAL
OIG direct resources dedicated to critical-risk and high-impact                         97.7%            92%         96.9%
activities.

Audit recommendations where management decisions are                                    96.8%            90%         95%
achieved within 1 year.


Audits initiated where the findings and recommendations are                             91.9%            90%         100%
presented to the auditee within established or agreed-to
timeframes.

Closed investigations that resulted in a referral for action to                         88.8%            75%         88.8%
USDOJ, State, or local law enforcement officials, or relevant
administrative authority.


Closed investigations that resulted in an indictment, conviction,                       71.2%            70%         76.5%
civil suit or settlement, judgment, administrative action, or
monetary result.



RECOVERY ACT PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS

PERFORMANCE MEASURES                                                                                                FY 2013
                                                                                       FY 2012        FY 2013       1st Half
                                                                                       ACTUAL         TARGET        ACTUAL
Notify USDA agency managers of significant audit findings
related to Recovery Act programs along with recommendations                              100%           100%        N/A**
for corrective action within 30 days after identification.
Respond to Recovery Accountability and Transparency Board-
sponsored requests and projects within established schedules or                         94.4%            85%         100%
agreed-to timeframes.
An investigative determination to accept or decline an allegation
of whistleblower retaliation is made within 180 days of receipt.                         100%           100%          N/A

Whistleblower retaliation allegations are investigated and
reported within 180 days of receipt.*                                                     N/A            75%          N/A

Timely and accurate monthly Recovery Act funds reports
submitted to the Recovery Board.                                                         100%            95%         100%

* No Recovery Act whistleblower retaliation allegations were received or investigated.
** All remaining Recovery Act audits are nearing issuance of final reports. No further notifications anticipated.




34 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                              Impact of the OIG



SUMMARY OF AUDIT ACTIVITIES—OCTOBER 2012-MARCH 2013
    Reports Issued: 38                                        Audits Performed by OIG                                                       33
                                                              Audits Performed Under the Single                                              0
                                                              Audit Act
                                                              Audits Performed by Others                                                     5
    Management Decisions Made: 201                            Number of Reports                                                            32
                                                              Number of Recommendations                                                   201
    Total Dollar Impact (Millions) of                         Total Questioned/Unsupported Costs                                      $15.4a, b
    Management-Decided Reports:                                    -Recommended for Recovery                                            $0.1c
    $138.9 million
                                                                   -Not Recommended for Recovery                                        $15.4
                                                              Funds to Be Put to Better Use                                            $123.5
a
  These were the amounts the auditees agreed to at the time of management decision.
b
  The recoveries realized could change as auditees implement the agreed-upon corrective action plans and seek recovery of amounts recorded as
debts due the Department.
c
  Actual amount is $84,596, shown as $0.1 due to rounding. Total amount is correct at $15.4.


SUMMARY OF INTERIM REPORTS ISSUED—OCTOBER 2012-MARCH 2013
OIG uses Interim Reports to alert management to immediate issues during the course of an ongoing audit assignment.
Typically, they report on one issue or finding requiring management’s attention. OIG did not issue any Interim Reports during
this reporting period.

SUMMARY OF INVESTIGATIVE ACTIVITIES—OCTOBER 2012-MARCH 2013

                  Reports Issued: 180                           Cases Opened                                                             225
                                                                Cases Referred for Prosecution                                           136
               Impact of Investigations                         Indictments                                                              378
                                                                              a
                                                                Convictions                                                              298
                                                                Searches                                                                 179
                                                                Arrests                                                                  257
                                                                                               b
       Total Dollar Impact (Millions): $83.8                    Recoveries/Collections                                                   $0.9
                                                                               c
                                                                Restitutions                                                            $62.6
                                                                        d
                                                                Fines                                                                    $0.9
                                                                                       e
                                                                Asset Forfeitures                                                       $12.2
                                                                                           f
                                                                Claims Established                                                       $1.7
                                                                                   g
                                                                Cost Avoidance                                                           $5.5
                                                                                                   h
                                                                Administrative Penalties                                                  $0
           Administrative Sanctions: 192                        Employees                                                                 20
                                                                Businesses/Persons                                                       172
a
  Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely;
therefore, the 298 convictions do not necessarily relate to the 378 indictments.
b
  Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
  Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
  Fines are court-ordered penalties.
e
  Asset forfeitures are judicial or administrative results.
f
  Claims established are agency demands for repayment of USDA benefits.
g
  Consists of loans or benefits not granted as the result of an OIG investigation.
h
  Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 35
                                                                Impact of the OIG


INVENTORY OF AUDIT REPORTS WITH QUESTIONED COSTS AND LOANS FROM OCTOBER 1, 2012
THROUGH MARCH 31, 2013
                                                                                                                                             a
                                                                                                                              UNSUPPORTED
                                                                                      QUESTIONED COSTS AND                     COSTS AND
                  CATEGORY                                        NUMBER                     LOANS                               LOANS
 Reports for which no management decision                                 1, 2                                          1                        2
                                       b                              6                                  $276,405,047           $13,832,770
     had been made by October 1, 2012.
    Reports which were issued during the
                                                                          7                              $423,126,002            $35,455,687
               reporting period.
Total reports with questioned costs and loans                          13                                $699,531,049            $49,288,457
                                                                                    Recommended
                                                                                                                 $84,596                    $0
                                                                                    for recovery
        Of the 13 reports, those for which                                          Not
     management decision was made during the                              4         recommended           $15,362,041            $12,729,539
                reporting period.                                                   for recovery
                                                                                    Costs not
                                                                                                                  $1,522                    $0
                                                                                    disallowed
       Of the 13 reports, those for which no
    management decision has been made by the                              9                              $684,082,890            $36,558,918
            end of this reporting period.
        Total current reports for which no
     management decision was made within 6                                4                              $263,588,748             $1,103,231
                                    b
               months of issuance.
a
    Unsupported values are included in questioned values.
b
    Carried over from previous reporting periods (see footnotes 1 and 2 for adjustment to beginning balances).

INVENTORY OF AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                 CATEGORY                                                       NUMBER                 DOLLAR VALUE
        Reports for which no management decision had been made by
                                               a                                                     3                          $117,124,151
                              October 1, 2012.
           Reports which were issued during the reporting period.                                    6                           $38,543,099
    Total reports with recommendations that funds be put to better use                               9                          $155,667,250
                                                                                                                 Disallowed
                                                                                                                                $123,493,334
      Of the 9 reports, those for which management decision was made                                             costs
                                                                                                     7
                          during the reporting period.                                                           Costs not
                                                                                                                                      $16,300
                                                                                                                 disallowed
     Of the 9 reports, those for which no management decision has been
                                                                                                     2                           $32,157,616
                  made by the end of this reporting period.
    Total current reports for which no management decision was made
                                                   a                                                 0                                       $0
                       within 6 months of issuance.
a
    Carried over from previous reporting periods.



1
  Adjustment was made to beginning balance. Three interim reports (08703-0005-SF, interim reports 7, 8, and 9, totaling $17,619,879) issued in
prior SARC periods were incorporated into the final report issued March 28, 2013; additional findings associated with the interim reports were
identified. New amounts are now reflected under the category “Reports which were issued during the reporting period.”
2
  Adjustment was made to beginning balance. One interim report (08703-0005-SF, interim report 10, totaling $2,700,000) issued in a prior
SARC period was incorporated into the final report issued March 28, 2013. The new amount is now reflected under category “Reports which
were issued during the reporting period.”



36 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                         Impact of the OIG



Program Improvement Recommendations                                              Audit and Investigation Peer
    A significant number of our audit                                            Reviews
    recommendations carry no monetary value per
    se, but their impact can be immeasurable in                                 In November 2012, the Environmental
    terms of safety, security, and public health.                                Protection Agency OIG completed a peer review
    They can also contribute considerably toward
                                                                                 of USDA OIG’s audit organization. USDA OIG
    economy, efficiency, and effectiveness in
    USDA’s programs and operations. During this                                  received a rating of “Pass,” the best evaluation
    reporting period, we issued 230 program                                      an audit organization can receive.
    improvement recommendations, and
    management agreed to implement a total of                                   Because peer reviews are performed on a 3-year
    180 that were issued this period or earlier.
                                                                                 cycle, no peer reviews of OIG’s investigation
    Examples of those issued this period include the
    following (see the main text of this report for a                            organization were performed during the current
    summary of the audits that prompted these                                    semiannual reporting period. Our most recent
    recommendations):
                                                                                 review was conducted in 2010 by the
   FSIS should ensure that beef components likely to be                         Department of Homeland Security OIG. The
    used for ground beef by grocery stores, butchers,                            report, issued November 10, 2010, contained no
    restaurants, and hotels are tested for E. coli.                              recommendations and determined that OIG is in
   NRCS should perform an overall risk assessment of                            compliance with the quality standards
    program operations and implement an integrated                               established by CIGIE and the Attorney General.
    compliance strategy so that it can ensure that its
                                                                                The Government Accounting Office (GAO)
    $3.6 billion in program expenditures are reaching
                                                                                 completed a review of USDA OIG FY 2009-2011
    eligible recipients and that its resources are not
                                                                                 operations in comparison to other Cabinet-level
    vulnerable to fraud, waste, and abuse.
                                                                                 OIGs in March 2013. GAO found that USDA OIG
   RUS should ensure that future broadband programs
                                                                                 issued 212 audit reports and completed
    are better focused on providing access to that
                                                                                 878 investigations that provided oversight
    important technology to rural citizens who would not
                                                                                 coverage for each of USDA's seven mission
    otherwise have access.
                                                                                 areas. In comparison to other OIGs, USDA OIG’s
                                                                                 estimated average return on investment for each
                                                                                 budgetary resource dollar received was $13.96
                                                                                 during the 3-year period compared to the other
                                                                                 Cabinet-level OIGs' average return of $12.63.
                                                                                 They also found that USDA OIG budget resources
                                                                                 decreased by about 8 percent compared to
                                                                                 6 percent by other Cabinet-level OIGs.




                                                            USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 37
                                                         Impact of the OIG



AUDIT REPORTS

        From October 1, 2012, through March 31, 2013, OIG issued 38 audit reports, including 5 performed by others.
        During this same period, no Interim reports were issued. The following is a summary of those audit products
        by agency:

AUDIT REPORT TOTALS
        Total funds that can be put to better use                                                            $38,543,099
                                          a
        Total questioned costs and loans                                                                    $423,126,002
        a
            Unsupported values of $35,455,687 are included in the questioned values.


SUMMARY OF AUDIT REPORTS RELEASED FROM OCTOBER 1, 2012 THROUGH
MARCH 31, 2013

                                                                                                            FUNDS TO BE
                                               AUDITS           QUESTIONED COSTS        UNSUPPORTED        PUT TO BETTER
          AGENCY TYPE                         RELEASED             AND LOANS           COSTS AND LOANS          USE
SINGLE AGENCY AUDIT                              28                    $423,126,002          $35,455,687      $38,543,099
MULTIAGENCY AUDIT                                   10                           $0                  $0               $0
TOTAL COMPLETED UNDER                               5
         a
CONTRACT
ISSUED AUDITS COMPLETED UNDER                       0
THE SINGLE AUDIT ACT
a
    Audits performed by others.




38 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                              Impact of the OIG



AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES FROM OCTOBER 1, 2012
THROUGH MARCH 31, 2013
    AUDIT                                                            QUESTIONED     UNSUPPORTED     FUNDS TO BE
 TOTALS BY                      RELEASE                               COSTS AND      COSTS AND         PUT TO
   AGENCY      AUDIT NUMBER      DATE                TITLE              LOANS          LOANS         BETTER USE
Agricultural   01099-0001-21   03/29/13   Beef Research and
 Marketing                                Promotion Board
  Service: 1                              Activities
 Animal and    33701-0001-AT   11/06/12   Follow-up on APHIS’
Plant Health                              Implementation of the
 Inspection                               Select Agent or Toxin
  Service: 1                              Regulations
Commodity      06401-0002-11   11/09/12   Fiscal Years 2012 and
    Credit                                2011 CCC Financial
Corporation:                              Statements
      1
               91099-0001-21   02/28/13   Controls Over the
Departmental
                                          Grant Management
Management:
                                          Process of the Office of
     1
                                          Advocacy and Outreach
               27401-0002-21   11/09/12   Fiscal Years 2012 and
                                          2011 FNS Financial
                                          Statements
               27601-0001-23   01/03/13   National School Lunch        $1,679,860
                                          Program—Food Service
                                          Management
                                          Companies and Cost
 Food and                                 Reimbursable Contracts
 Nutrition     27601-0038-CH   03/29/13   Vendor Management
 Service: 4                               and Participant
                                          Eligibility in the WIC
                                          Program
               27703-0002-22   03/28/13   Recovery Act
                                          Performance Measures
                                          for the Supplemental
                                          Nutrition Assistance
                                          Program
               24601-0003-31   03/22/13   FSIS E.coli Testing on
Food Safety                               Boxed Beef
     and
 Inspection
  Service: 1

               08401-0002-11   11/09/12   Fiscal Years 2012 and
                                          2011 FS Financial
                                          Statements
               08601-0001-21   03/12/13   Management of Oil and
                                          Gas Resources on
                                          National Forest System
  Forest                                  Land
 Service: 4    08703-0001-41   03/28/13   FS Performance
                                          Measures for Recovery
                                          Act Projects
               08703-0005-SF   03/28/13   Recovery Act—FS             $65,994,351     $33,582,028    $25,779,197
                                          Hazardous Fuels
                                          Reduction/Ecosystem
                                          Restoration on Non-
                                          Federal Lands


                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 39
                                                Impact of the OIG



   AUDIT                                                               QUESTIONED    UNSUPPORTED   FUNDS TO BE
 TOTALS BY                       RELEASE                                COSTS AND     COSTS AND       PUT TO
  AGENCY        AUDIT NUMBER      DATE                TITLE               LOANS         LOANS       BETTER USE
                50024-0004-11   03/14/13    USDA’s Fiscal Year 2012
                                            Compliance With the
                                            Improper Payments
                                            Elimination and
                                            Recovery Act of 2010
                50401-0003-11   11/15/12    USDA’s Consolidated
                                            Financial Statements
                                            for FYs 2012 and 2011
                50401-0004-11   11/16/12    Fiscal Year 2012 Audit
                                            of USDA’s Closing
                                            Package
                50501-0003-12   11/15/12    Fiscal Year 2012
                                            Federal Information
                                            Security Management
                                            Act Report (FISMA)
                50601-0001-22   03/28/13    Effectiveness of USDA’s
                                            Recent Efforts to
                                            Enhance Agricultural
Multi-Agency:
                                            Trade
      10
                50601-0001-23   11/30/12    USDA Controls Over
                                            Shell Egg Inspections
                50601-0001-31   01/30/13    Verifying Credentials of
                                            Veterinarians
                                            Employed or
                                            Accredited by USDA
                50703-0001-12   03/25/13    Procurement Oversight
                                            Audit of South Building
                                            Modernization Project
                                            (Phase 4A, Wing 5)
                50703-0001-13   10/26/12    Recovery Act—USDA
                                            FederalReporting.gov
                                            March 2011 Data
                                            Quality Review
                50703-0002-13   11/30/12    Data Quality Review of
                                            Recovery Act Jobs
                                            Reported for USDA
                                            Programs
                10401-0002-11   11/09/12    Fiscal Year 2012 NRCS
                                            Financial Statements
                10601-0001-22   02/07/13    NRCS’ Oversight and
                                            Compliance Activities
                10703-0001-31   03/14/13    Recovery Act—NRCS’                                        $231,100
                                            Emergency Watershed
                                            Protection Program
                                            Floodplain Easements
  Natural
                                            and Watershed
 Resources
                                            Operations
Conservation
                                            Effectiveness Review
 Service: 5
                10703-0001-AT   03/25/13    Rehabilitation of Flood                                  $1,440,028
                                            Controls Dams—Phase
                                            2
                10703-0005-KC   03/14/13    Recovery Act—NRCS’            $121,302
                                            Emergency Watershed
                                            Protection Program
                                            Floodplain Easements,
                                            Field Confirmations


40 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                           Impact of the OIG



       AUDIT                                                                    QUESTIONED     UNSUPPORTED       FUNDS TO BE
     TOTALS BY                          RELEASE                                  COSTS AND      COSTS AND           PUT TO
      AGENCY        AUDIT NUMBER         DATE                    TITLE             LOANS          LOANS           BETTER USE
    Office of the   88501-0001-12      01/31/13         Review of Selected
        Chief                                           Controls of the E-
    Information                                         Authentication System
      Officer: 1
                    05401-0002-11      11/07/12         Fiscal Years 2012 and
                                                        2011 FCIC Financial
   Risk
                                                        Statements
Management
                    05601-0006-KC      02/22/13         Federal Crop                $952,000                       $4,260,000
 Agency: 2
                                                        Insurance—Organic
                                                        Crops
                    34703-0001-31      01/24/13         Recovery Act—Rural        $4,844,655         $326,639
                                                        Business Enterprise
       Rural                                            Grants, Field
     Business-                                          Confirmations
    Cooperative     34703-0001-32      03/29/13         Recovery Act—Business     $2,600,000
     Service: 2                                         and Industry
                                                        Guaranteed Loan
                                                        Program—Phase 3
                    85401-0002-11      11/13/12         Fiscal Years 2012 and
    Rural
                                                        2011 Rural
Development:
                                                        Development Financial
      1
                                                        Statements
                    04703-0001-31      12/12/12         Recovery Act—Single-
                                                        Family Housing Direct
                                                        and Guaranteed Loans,
Rural Housing                                           Effectiveness Review
  Service: 2        04703-0003-HY      02/25/13         Recovery Act—Loss       $346,933,834        $1,547,020
                                                        Claims Related to
                                                        Single-Family Housing
                                                        Guaranteed Loans
                    09703-0001-22      03/26/13         RUS Controls Over                                           $454,355
                                                        Recovery Act Water
                                                        and Waste Loans and
                                                        Grants Expenditures
Rural Utilities                                         and Effectiveness
 Service: 2                                             Review
                    09703-0001-32      03/29/13         Recovery Act—                                              $6,378,419
                                                        Broadband Initiatives
                                                        Program, Pre-Approval
                                                        Controls
                    Grand Total: 38                                             $423,126,002      $35,455,687     $38,543,099
a
Unsupported values are included in questioned values.




                                                               USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 41
                                                    Impact of the OIG



NO MANAGEMENT DECISION
      In total, OIG has 8 audits without management decision. Their details are provided in the tables below:

NEW FOR THIS REPORTING PERIOD
                                                                         TOTAL VALUE AT      AMOUNT WITH NO
                                                                          ISSUANCE (in        MGMT DECISION
  AGENCY
               DATE ISSUED                TITLE OF REPORT                    dollars)           (in dollars)
 FS            07/03/12       Recovery Act—Forest Service Capital                $406,534              $317,741
                              Improvement and Maintenance
                              Projects—Trail Maintenance and
                              Decommissioning (08703-0004-SF)
 OCIO          08/02/12       OCIO Fiscal Years 2010 and 2011                          $0                       $0
                              Funding Received for Security
                              Enhancements (88401-0001-12)
               09/26/12       Review of Selected Controls at the                       $0                       $0
                              National Information Technology
                              Center (88401-0001-11)
 Total New For This Reporting Period: 3


The audits in the following table are still pending agency action or are under judicial, legal, or investigative
proceedings. Details on the recommendations where management decisions had not been reached have been
reported in previous SARCs. Agencies have been informed of actions that must be taken to reach management
decision but, for various reasons, the actions have not been completed. The appropriate Under or Assistant
Secretaries have been notified of those audits without management decisions.

AUDIT REPORTS PREVIOUSLY REPORTED BUT NOT YET RESOLVED

                                                                         TOTAL VALUE AT      AMOUNT WITH NO
                    DATE                                                  ISSUANCE (in        MGMT DECISION
  AGENCY           ISSUED                 TITLE OF REPORT                    dollars)           (in dollars)
 FSA            02/02/09       Hurricane Relief Initiatives: Livestock         $1,866,412              $427,276
                               and Feed Indemnity Programs
                               (03601-0023-KC)
 Multi-         11/15/11       Fiscal Year 2011 Federal Information                    $0                       $0
 agency                        Security Management Act (50501-
                               0002-12)
 RMA            03/04/09       RMA’s 2005 Emergency Hurricane                $217,256,417          $217,256,417
                               Relief Efforts in Florida (05099-0028-
                               AT)
                09/16/09       RMA Compliance Activities (05601-                       $0                       $0
                               0011-AT)
                09/07/11       Citrus Crop Indemnity Payments from            $44,059,385           $44,059,385
                               Hurricane Wilma in Florida (05099-
                               0029-AT)
 Total Previously Reported But Not Yet Resolved: 5




42 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                 Impact of the OIG



AUDITS WITHOUT MANAGEMENT DECISION—NARRATIVE FOR NEW ENTRIES

American Recovery and Reinvestment Act—Forest Service Capital Improvement and Maintenance
Projects—Trail Maintenance and Decommissioning (08703-0004-SF), Forest Service, issued July 3,
2012
In the one recommendation without management decision (Recommendation 3), OIG questioned costs totaling
$317,741, from eight subgrants for costs unrelated to Trail Maintenance and Decommissioning, Hazardous Fuels
Reduction on Federal Land, or Hazardous Fuels on non-Federal Land programs (see exhibit B of the subject audit
report). In a September 7, 2012 followup response, FS reported concurrence with the recommendation. FS
agreed to review the questioned costs, prepare a summary report, and provide documentation supporting its
findings. If the questioned costs are determined to be uncollectible because FS did not specify the conditions for
the use of the funds in the grant, FS will consider waiving the uncollectible amount. The estimated completion
date was May 31, 2013. To achieve management decision, FS officials need to provide detailed justification to
support any portion of the questioned costs that FS determined to be allowable and supported. For the balance,
FS needs to provide both a copy of the bills for collection and evidence that the bills for collection have been
recorded as accounts receivable on FS accounting records, as well as the timeframes under which these would be
implemented.

Audit of Office of the Chief Information Officer’s FY 2010 and FY 2011 Funding Received for Security
Enhancements (88401-0001-12), Office of the Chief Information Officer, issued August 2, 2012
In the two recommendations without management decision (Recommendations 2 and 4), OIG recommended that
OCIO designate sufficient resources to adequately configure and monitor the security sensor array in order to
defend USDA’s information systems against external and internal threat. In addition, OCIO needs to strengthen
communication and coordination between OCIO management, project managers [also known as control account
managers], and contractors, allowing the different parties to work collaboratively and effectively.
To reach management decision for Recommendation 2, OCIO needs to provide a plan, which includes timeframes,
detailing how it will ensure the Sensor Security Array is adequately monitored and properly configured. To reach
management decision for Recommendation 4, OCIO needs to provide estimated completion dates and specifics as
to how communication and coordination will be strengthened between contactors, management, and control
account managers.


Review of Selected Controls at the National Information Technology Center (88401-0001-11), Office of
the Chief Information Officer, issued September 26, 2012
In the one recommendation without management decision (Recommendation 2), OIG reported that OCIO needed
to implement the Department’s Plan of Action and Milestones process for critical vulnerabilities existing more than
30 days or, alternatively, obtain a waiver. In February 2013, the National Information Technology Center obtained
an approved waiver from the Chief Information Security Officer approving the use of Remedy software to manage
vulnerability scan findings. The National Information Technology Center is also implementing the oversight and
compliance monitoring requirements prescribed within the waiver. Once OCIO provides a date by which this
action will be completed, management decision can be reached.




                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 43
                                                       Impact of the OIG



    INDICTMENTS AND CONVICTIONS

    From October 2012 through March 2013, OIG completed 180 investigations. We referred 136 cases to
    Federal, State, and local prosecutors for their decision.

    During the reporting period, our investigations led to 378 indictments and 298 convictions. The period of time
    to obtain court action on an indictment varies widely; therefore, the 298 convictions do not necessarily relate
    to the 378 indictments. Fines, recoveries/collections, restitutions, claims established, cost avoidance, and
    administrative penalties resulting from our investigations totaled about $83.8 million. The following is a
    breakdown, by agency, of indictments and convictions for the reporting period.
INDICTMENTS AND CONVICTIONS—October 2012-March 2013
 AGENCY                                         INDICTMENTS                   CONVICTIONS*
 ARS                                            1                             2
 APHIS                                          43                            29
 FAS                                            0                             1
 FNS                                            284                           233
 FS                                             6                             7
 FSA                                            12                            9
 FSIS                                           17                            0
 Multi-Agency                                   2                             0
 NRCS                                           2                             0
 RBS                                            0                             1
 RHS                                            5                             6
 RMA                                            5                             8
 RUS                                            1                             2
 Totals                                         378                           298
     * This category includes pretrial diversions.




44 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                Impact of the OIG



   OFFICE OF INSPECTOR GENERAL HOTLINE

   The OIG hotline serves as a national intake point for reports from both employees and the general public of
   suspected incidents of fraud, waste, mismanagement, and abuse in USDA programs and operations. During
   this reporting period, the hotline received 1,887 complaints, which included allegations of participant fraud,
   employee misconduct, and mismanagement, as well as opinions about USDA programs. The following tables
   are a summary of the Hotline complaints for the first half of FY 2013.

NUMBER OF COMPLAINTS RECEIVED
TYPE                                                                                                   NUMBER
Employee Misconduct                                                                                          113
Participant Fraud                                                                                          1,435
Waste/Mismanagement                                                                                          223
Health/Safety Problem                                                                                         19
Opinion/Information                                                                                           94
Bribery                                                                                                        2
Reprisal                                                                                                       1
Total Number of Complaints Received                                                                        1,887




DISPOSITION OF COMPLAINTS RECEIVED
METHOD OF DISPOSITION                                                                                  NUMBER
Referred to OIG Audit or Investigations for Review                                                          154
Referred to Other Law Enforcement Agencies                                                                    4
Referred to USDA Agencies for Response                                                                      397
Referred to FNS for Tracking                                                                              1,026
Referred to USDA or Other Agencies for Information—No Response                                              251
Needed
Filed Without Referral—Insufficient Information                                                               41
Referred to State Agencies                                                                                    14




                                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 45
                                                          Impact of the OIG



FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA) REQUESTS FOR THE PERIOD
OCTOBER 1, 2012 THROUGH MARCH 31, 2013
                 CATEGORIES                                                        TYPE                                NUMBER
  FOIA/PA Requests Received/Processed                    FOIA/PA Requests Received                                       59
                                                         Granted                                                          1
                                                         Partially Granted                                                7
                                                         Not Granted                                                     16
                                                         Total FOIA/PA Requests Processed                                36
                Reasons for Denial                       No Records Available                                             5
                                                         Referred to Other Agencies                                       1
                                                         Requests Denied in Full Exemption 5                              0
                                                         Requests Denied in Full Exemption 7(A)                           9
                                                         Requests Denied in Full Exemption 7(C)                           0
                                                         Request Withdrawn                                                1
                                                         Fee-Related                                                      0
                                                         Not a Proper FOIA Request                                        1
                                                         Not an Agency Record                                             1
                                                         Duplicate Request                                                0
                                                         Other                                                            4
         Requests for OIG Reports from                   Received                                                         0
        Congress and Other Government                    Processed                                                        0
                   Agencies
                  Appeals                            Appeals Received                                                    7
                                                     Appeals Processed                                                   9
                                                        Completely Upheld                                                4
                                                        Partially Reversed                                               3
                                                        Completely Reversed                                              2
                                                        Requests Withdrawn                                               0
                                                        Other                                                            0
                                                     OIG Reports/Documents Released in Response to                       8
                                                     Requests
 NOTE 1: A request may involve more than one report.
 NOTE 2: During this 6-month period, 37 audit reports were posted online on the OIG website: http://www.usda.gov/oig




46 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half
                                                Impact of the OIG



 Abbreviations
ABBREVIATION     FULL NAME                                                        Technology
AIP              approved insurance provider                  ABBREVIATION      FULL NAME
AMS              Agricultural Marketing Service               NOP               National Organic Program
APHIS            Animal and Plant Health Inspection           NRCS              Natural Resources Conservation
                 Service                                                        Service
ARS              Agricultural Research Service                NSLP              National School Lunch Program
B&I              business and industry                        OAO               Office of Advocacy and Outreach
beef board       Cattlemen’s Beef Promotion and               OCFO              Office of the Chief Financial Officer
                 Research Board                               OCIO              Office of the Chief Information
BIP              Broadband Initiatives Program                                  Officer
BLM              Bureau of Land Management                    OIG               Office of Inspector General
CCC              Commodity Credit Corporation                 OMB               Office of Management and Budget
CIGIE            Council of Inspectors General on             Ombuds            Ombudsman
                 Integrity and Efficiency                     OMRI              Organic Materials Review Institute
eAuth            eAuthentication                              OPM               Office of Personnel Management
EBT              electronic benefits transfer                 PA                Privacy Act
E. coli          Escherichia coli O157:H7                     PHIS              Public Health Information System
EWPP             Emergency Watershed Protection               RBS               Rural Business-Cooperative Service
                 Program                                      RBEG              Rural Business Enterprise Grant
FAS              Foreign Agricultural Service                                   Program
FBI              Federal Bureau of Investigation              RD                Rural Development
FCIC             Federal Crop Insurance                       Recovery Act      American Recovery and
                 Corporation                                                    Reinvestment Act of 2009
FDA              Food and Drug Administration                 RHS               Rural Housing Service
FFMIA            Federal Financial Management                 RMA               Risk Management Agency
                 Improvement Act of 1996                      RUS               Rural Utilities Service
FNS              Food and Nutrition Service                   SARC              Semiannual Report to Congress
FOIA             Freedom of Information Act                   SBA               Small Business Administration
FS               Forest Service                               SFA               school food authorities
FSA              Farm Service Agency                          SFH               Single Family Housing Program
FSAN             Financial Statement Audit Network            SIGAR             Special Inspector General for
FSIS             Food Safety and Inspection Service                             Afghanistan Reconstruction
FY               fiscal year                                  SNAP              Supplemental Nutrition Assistance
GAO              Government Accountability Office                               Program
HUD              U.S. Department of Housing and               USAID             U.S. Agency for International
                 Urban Development                                              Development
IG               Inspector General                            USDA              U.S. Department of Agriculture
IPERA            Improper Payments Elimination                USDOJ             U.S. Department of Justice
                 and Recovery Act of 2002                     WFM               wildland fire management
IRS              Internal Revenue Service                     WIC               Special Supplemental Nutrition
IRS-CI           Internal Revenue Service-Criminal                              Program for Women, Infants, and
                 Investigation                                                  Children
IT               information technology                       WSDA              Washington State Department of
NFS              National Forest System                                         Agriculture
NGO              non-governmental organization                WWD               Water and Waste Disposal System
NIFA             National Institute of Food and
                 Agriculture
NIST             National Institute of Standards and




                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2013 First Half 47
EXAMPLES OF PROGRAM IMPROVEMENT RECOMMENDATIONS MANAGEMENT AGREED TO
DURING THIS REPORTING PERIOD (180 TOTAL)
          FSIS should ensure that beef components likely to be used for ground beef by grocery stores, butchers,
           restaurants, and hotels are tested for E. coli.
          NRCS should perform an overall risk assessment of program operations and implement an integrated compliance
           strategy so that it can ensure that its $3.6 billion in program expenditures are reaching eligible recipients and
           that its resources are not vulnerable to fraud, waste, and abuse.
          RUS should ensure that future broadband programs are focused on providing access to that important
           technology to rural citizens who would not otherwise have access.


   OIG MISSION
   OIG assists USDA by promoting effectiveness and integrity in hundreds of Department programs. These
   programs encompass a broad spectrum, involving such areas as consumer protection, nutrition, animal and
   plant health, agricultural production, agricultural product inspection and marketing, rural development,
   research, conservation, and forestry. They affect our citizens, our communities, and our economy.

   OIG STRATEGIC GOALS
   We have focused nearly all of our audit and investigative direct resources on our four goals:
          Strengthen USDA’s ability to implement safety and security measures to protect the public health as well as
           agricultural and Departmental resources.
          Reduce program vulnerabilities and strengthen program integrity in the delivery of benefits to program
           participants.
          Support USDA in implementing its management improvement initiatives.
          Increase the efficiency and effectiveness with which USDA manages and exercises stewardship over natural
           resources.
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm

How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin, age, disability, and
where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs, genetic
information, reprisal, or because all or part of an individual’s income is derived from any public assistance program. (Not all prohibited bases apply to all programs.)
Persons with disabilities who require alternative means for communication of program information (Braille, large print, audiotape, etc.) should contact USDA’s TARGET
Center at (202) 720-2600 (voice and TDD). To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant Secretary for
Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-
8642 (English Federal-relay) or (800) 845-6136 (Spanish Federal relay). USDA is an equal opportunity provider and employer.
